<html>
<title> - TITLE I PROGRAM</title>
<body><pre>[Senate Hearing 107-46]
[From the U.S. Government Printing Office]



.                                                        S. Hrg. 107-46
                            TITLE I PROGRAM
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING
                  APRIL 20, 2001--JACKSON, MISSISSIPPI
                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______


                        U.S. GOVERNMENT PRINTING OFFICE
72-478                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
                                     MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)
                           Professional Staff
                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                        Ellen Murray (Minority)

                         Administrative Support
                             Correy Diviney
                       Carole Geagley (Minority)











                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Thad Cochran........................     1
Statement of Dr. Richard Thompson, State Superintendent of 
  Education, Mississippi Department of Education.................     2
Statement of Dr. Lynn House, bureau director, Office of 
  Innovative Support, Mississippi Department of Education........     4
Statement of Joyce B. McNair, superintendent, Humphreys County 
  School District................................................     5
    Prepared statement...........................................     7
Statement of Dr. Therrell Myers, superintendent, Columbus 
  Municipal School District......................................     8
    Prepared statement...........................................    10
Statement of Dr. Daniel Watkins, superintendent, Yazoo City 
  Municipal School District......................................    11
    Prepared statement...........................................    13
Prepared statement of the Office of Research and Statistics, 
  Mississippi Department of Education............................    21










                            TITLE I PROGRAM

                              ----------                              


                         FRIDAY, APRIL 20, 2001

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                       Jackson, MS.
    The subcommittee met at 10 a.m., in the auditorium of the 
Central High School Building, Mississippi Department of 
Education, Hon. Thad Cochran presiding.
    Present: Senator Cochran.


               opening statement of senator thad cochran


    Senator Cochran. Good morning. It's a pleasure for me to 
convene and welcome you to this hearing of the United States 
Senate Committee on Appropriations. The subcommittee on Labor, 
Health and Human Services, Education and Related Agencies is 
chaired by Senator Arlen Specter of Pennsylvania, who has 
authorized me to chair this hearing. This is the second hearing 
of the subcommittee we've had in Mississippi this week. The 
first, in Bay Saint Louis, examined the effectiveness of the 
National Writing Project in Mississippi schools, particularly 
schools on the Mississippi Gulf Coast.
    We appreciate very much the assistance of Dr. Richard 
Thompson, superintendent of Mississippi Department of 
Education, and Dr. Susan Rucker, associate superintendent, and 
their staff members in preparation for this hearing and for 
allowing us to use this auditorium.
    The purpose of today's hearing is to review the Title I 
Grants to LEAs (Title I) Program of the Elementary and 
Secondary Education Act. Title I is the largest Federal 
education program for elementary and secondary schools. It was 
enacted as part of the first comprehensive Federal education 
program in 1965. Since then, nearly $133 billion have been made 
available to States and school districts to improve 
opportunities for a good education of disadvantaged students.
    In the first year, Mississippi schools received about $24 
million from the Title I program. Last year, our State's share 
amounted to about $126 million. Out of the student population 
in Mississippi's public schools of about 500,000, about 150,000 
are Title I eligible students. Most of the schools in 
Mississippi receive Title I funds.
    This hearing provides the United States Senate with an 
opportunity to learn more about the Title I Program and how it 
is working in Mississippi. We're very pleased to have such a 
distinguished panel of witnesses today to discuss this with me, 
and I'm looking forward to their testimony. Each witness has 
provided the subcommittee with written testimony, which we make 
a part of the hearing record. We also have written materials 
furnished to the committee and presented to me this morning by 
the State Department of Education about the Title I Program, 
and that will be made a part of the hearing record, as well. I 
invite the witnesses to make whatever comments, verbal 
testimony available to the committee that you think will assist 
us in understanding the issues before us.
    [Clerk's note.--The material submitted is being retained in 
the Subcommittee files.]
    Senator Cochran. Panel 1: Dr. Richard Thompson, State 
Superintendent of Education, Mississippi Department of 
Education; Dr. Lynn House, Bureau Director, Office of 
Innovative Support, Mississippi Department of Education; Ms. 
Joyce B. McNair, Superintendent, Humphreys County School 
District; Dr. Therrell Myers, Superintendent, Columbus 
Municipal School District; Dr. Daniel Watkins, Superintendent, 
Yazoo City Municipal School District.
    Dr. Richard Thompson is the State superintendent of 
education for Mississippi. He earned his Doctorate of Education 
and Master's Degree from the University of North Carolina. Dr. 
Lynn House is the director of the Office of Innovative Support 
of the Mississippi Department of Education and administers the 
Title I Program in Mississippi. Dr. House has 26 years of 
experience as an educator. She's been a principal, teacher and 
a teacher educator. She holds a Ph.D from the University of 
Mississippi, a Master's Degree from Firmin University and a 
Bachelor's Degree from the University of New Orleans. Ms. Joyce 
McNair is the superintendent of the Humphreys County School 
District. She attended Humphreys County schools before earning 
her Bachelor's Degree at Tulane College and her Master's Degree 
from Delta State University. Ms. McNair is currently enrolled 
in a doctoral program at Delta State. She has 31 years of 
experience as a public educator. Dr. Therrell Myers is 
superintendent of the Columbus Municipal School District. He's 
been an educator for 27 years. He previously served as 
associate superintendent at the Mississippi Department of 
Education. He has a Ph.D from Mississippi State University. Dr. 
Daniel Watkins is the superintendent of the Yazoo City School 
District. He earned his Bachelor's, Master's and Ph.D in 
educational specialties at Jackson State University.
    I welcome you all to our hearing and invite you to proceed. 
Dr. Thompson, we'll start with you. Thank you very much.
STATEMENT OF DR. RICHARD THOMPSON, STATE SUPERINTENDENT 
            OF EDUCATION, MISSISSIPPI DEPARTMENT OF 
            EDUCATION
    Dr. Thompson. Senator Cochran, thank you so much for being 
here and conducting this hearing, and we really appreciate the 
opportunity to present. As you have indicated, I have some 
literal information in support of our strong opinion of the 
value of Title I in the schools for the children in 
Mississippi.
    My comments this morning will be not repetitious of the 
ones that I had submitted necessarily in writing, but I do want 
to try to make significant that since 1985, we believe that 
Mississippi has made more progress than any other State in the 
Nation in education. And one of the unfortunate things is that 
we were so far behind. In fact, a former governor of the State 
once said that, in 1954, in the history of our State, only 1 in 
4 white children will graduate from high school in Mississippi. 
At that same time, in the history of our State, 1 in 40 black 
children will graduate from high school.
    To have the tremendous improvement we've had has only been 
made possible through the additional resources by this title. 
We were so pleased just last April 9th, just a few days ago, 
when a major press release was released by the name of the 
National Assessment of Educational Progress Report, that stated 
that Mississippi is one of 4 States in the Nation that had made 
the most progress with their bottom children and also their top 
children and had improved on more indicators than any other 
State, with the exception of Connecticut, Kentucky and North 
Carolina. So we felt very good about that.
    Well, again, I would point out that it is the infusion of 
those dollars, such as Title I, that have allowed us to make 
this progress. And we continue to have great need, because, as 
you know, 65 percent of the children in Mississippi that are in 
public schools are on free or reduced lunch. And we know the 
poverty standard that's applied to Title I, and Title I 
allocation is different, and it only reflects 27 percent of our 
children in poverty. And it is somewhat conflicted, but we know 
that that standard does create some problems for us, because we 
believe that many of our children are actually in poverty that 
may not be reflected by that particular statistic.
    There is no question that as we move into our new 
accountability system, that Title I funds will be more 
important than, perhaps, they have ever been. Our State 
struggles with the need to provide quality pre-kindergarten 
programs for our youngsters. And at this point, there is not a 
single State dollar that goes into that program. The brain 
research that's being developed indicates that one of the most 
significant things you could do for our children is to provide 
a quality program of pre-kindergarten. And the data is 
overwhelming. One research has indicated it may be as much as a 
16.5 differential, based on that kind of experience. So what is 
happening is 61 of our locations have chosen to use Title I 
dollars to help with that significant problem, and it is making 
a difference.
    In addition to that, we, in our new accountability system, 
are holding everyone accountable, teachers, principals, 
superintendents, school board members and, yes, students for 
improvement standards and increasing achievement. One of the 
things we know we must do is we must view this, not as a 
punitive measure, but a measure of diagnosing the needs of 
children early on and providing the kind of resources that help 
intervention, if you will, to meet those needs so these 
children can achieve and have an opportunity to the quality of 
life as any other child in America would have. And many of our 
districts have only this pot of money to look to provide that 
additional help, perhaps an after-school program, perhaps an 
early childhood program, for some of our youngsters at the high 
school level, even, the only remediation our districts can 
reach is Title I.
    Again, Senator, we're so grateful to you for your 
leadership and what you're doing for our State, and we stand 
ready to assist you and your committee any way that we can.
    Senator Cochran. Thank you very much, Dr. Thompson. We'll 
now turn to Dr. Lynn House. Welcome. You may proceed.
STATEMENT OF DR. LYNN HOUSE, BUREAU DIRECTOR, OFFICE OF 
            INNOVATIVE SUPPORT, MISSISSIPPI DEPARTMENT 
            OF EDUCATION
    Dr. House. Thank you so much, Senator Cochran and thanks to 
your staff for helping us get everything organized for today 
and special thanks to the superintendents here today who will 
also be testifying.
    First of all, I would like to emphasize the fact that the 
152 school districts in our State all receive Title I funds. 
Every one of these districts spend literally months and many 
hours in the planning process, so that every single cent of 
that money is spent wisely. In fact, they're in the process now 
of completing their consolidated application that will be the 
fruit to bear from all that planning.
    I also would like to say that we have received our 
preliminary allocation from the USDE. That preliminary 
allocation indicates that we will take a two to three percent 
cut in our funding for the coming year. When we reflect on what 
that means to our children and our district, this is the kind 
of scene that we predict: First of all, we believe that at 
least 6,500 students will no longer receive Title I services. 
We also believe that a minimum of 75 teachers will no longer be 
there to provide the instructional support that those Title I 
children need.
    You heard Dr. Thompson mention the importance of pre-K 
programs. We really have emphasized to our districts how vital 
that aspect of Title I is. We believe that we will not only see 
districts failing to implement pre-K programs with Title I 
dollars, we're really concerned that some of those that are 
currently in existence will be cut. We also believe very 
strongly that extended days, extended year programs that are 
funded through Title I are providing that additional 
instructional time that so many youngsters need to be 
successful academically. Those programs will also suffer. 
Professional development is another area that we believe will 
be cut with this funding reduction. Professional development is 
the way we help our teachers grow in their profession, so that 
they, indeed, can truly meet the needs of these youngsters who 
are at risk. Parent centers and parent activities, we believe, 
will also be impacted negatively by these cuts. We know the 
importance of involving parents in the education of their 
children. Those activities are, of course, required by Title I 
and will continue in some degree, but we also believe that some 
of the innovations will be cut with this funding loss.
    And lastly, I'd like to say that from the State 
perspective, we do a lot in trying to provide technical 
assistance to our districts. We believe we are a service 
agency, not just a regulatory agency. So we're in the district 
every year helping them with the planning process and doing 
some problem solving with them to help them understand how best 
to go about meeting the needs of their children through their 
Title I funding. We believe that because of the cut, we, too, 
will have to cut back on providing those services in some form 
or fashion.
    I'd like to close by just reading to you what Hilton Miller 
said about Title I. You might not know Hilton Miller, but he's 
one of our 2000 distinguished graduates for our Title I 
recognition program sponsored by the USDE. Hilton Miller said 
this: On this ladder that society calls life, I have come to 
realize that one step does not lead to another, it is the 
individual who decides whether or not to continue to climb, and 
if so, which step he or she must conquer. The Title I program 
helped me make my climb. Now, Hilton Miller, who was very 
recently the vice president of the University of Mississippi 
Law School student body is now a practicing attorney. He 
credited his success in many ways to the Title I program and 
what that program was able to do for him. His story is just one 
of thousands.
    We know we're impacting our children positively, and with 
the loss of funding, we know that impact will be lessened. So 
we would certainly request that you do everything you can, as 
we know you will, to help Mississippi receive its fair share of 
funding so that we, too, can continue to impact students like 
Hilton Miller.
    Senator Cochran. Thank you very much, Dr. House. Let's now 
turn to Ms. Joyce McNair. Welcome.
STATEMENT OF JOYCE B. McNAIR, SUPERINTENDENT, HUMPHREYS 
            COUNTY SCHOOL DISTRICT
    Ms. McNair. Good morning. It's an honor to be here, and we 
thank you for coming to our State. And I would like to share 
with you, I am from Humphreys County, the Mississippi Delta. We 
are a rural community. Forty-five percent of the students in my 
district live in poverty. Seventy-five percent of those 
students come from single parent homes. Our district serves 
approximately 2,300 children from pre-K to 12. We were once a 
thriving farming community. We have very little industry. Our 
farms are disappearing, and our children are suffering because 
of the economics in our community. But it has been through the 
efforts of our Title I funds that we have been able to provide 
services to our children and our families, as well as our staff 
in enabling them to reach and teach those children.
    We have, in our community, because of the educational 
level, 50-something percent of our population that's 25 or 
older who do not have high school degrees. Of our community, 12 
percent have graduated from college or have higher degrees. So 
when our children come into our school districts because of 
this environment, they come language delayed, but through the 
efforts of Title I, our students are able to achieve and 
overcome this barrier because of the programs in our district 
that we use our Title I funds for.
    Our reading initiative is one that I would like to share 
with you that we are doing with our Title I funds. If these are 
cut, it will have a devastating effect on our students served 
by our reading initiative. It is a statewide reading 
initiative, but for us, it is a crucial initiative, because we 
know the children cannot read, and they're not going to be 
successful. We use those funds in our reading initiative to 
diagnose children. We use an analytical reading inventory, and 
from this inventory, we are able to do prescriptive 
intervention. And this is where our Title I teachers come in. 
They actually work with the students on their weaknesses and 
strengths. We prescribe and we help each other as teachers in 
our district to come up with intervention strategies that will 
work for these students. And this happens in our early grades, 
because if we do not start early, then they will not be 
successful in school. Not only do we use it with our reading 
initiative, but it enables us to hire extra teachers to reduce 
our class size, enable us to provide a lot of one-on-one 
attention that our children need.
    Many of our children, to share something else about our 
district, our children, the majority of them, we have students 
that ride as long as 45 minutes, one way, to school. And these 
are kindergartners that may be doing that. So when they arrive 
at school, we have to be there to provide them with all the 
necessary equipment and resources to enable them to have a good 
education.
    We also use our Title I funds to offset, to work with our 
parents. We have a parent center, and in this parent center, we 
have liaisons that go out into our homes and work with our 
parents. We have found that, in our community, it is very 
difficult to get parents to come to the school. And through 
Title I, we're bridging that gap, we're seeing them become more 
involved, because we're sending our parent center people out to 
the homes, to their workplaces, and they're meeting with them. 
Our community businesses have been very good to us about 
letting us come into their businesses and meet with our 
parents, so we can share progress reports or any other 
information that they may need about school. Not only will the 
parent center do these things, but that parent center provides 
training for our parents, teaching them how to help with their 
children, how to be parents, parenting skills, how to help with 
homework. And we're also training them to be educators, because 
they are their children's first teachers.
    We have used those funds over the years to--not only do we 
care about our underachieving students, but we do have some 
very bright children in our district. And to address those 
needs, we've taken our Title I funds to host a Saturday 
academy. And we brought in teachers from Mississippi schools of 
math and science to work with our students, these are eighth 
and ninth graders, also, and train our teachers in mathematics 
and science. Our parents were a part of this program, they came 
on Saturday also. And believe it or not, we targeted 40 
students, and every Saturday, we had 40 students plus parents 
there, because there was an educational need.


                           prepared statement


    And lastly but not least, I would like to say that, without 
these funds, districts like mine, well, the impact would be 
tremendous. And we use our dollars wisely to meet the needs of 
all of our children, because our children are our most precious 
resource. And in our district, we believe truly that the 
children of Humphreys County should be afforded every 
educational opportunity as children anywhere in America. Thank 
you.
    [The statement follows:]

                 Prepared Statement of Joyce B. McNair

    I am superintendent of the Humphreys County School District which 
serves approximately 2300 students from Pre-K to 12. We are the only 
public school in the county which is located in Belzoni, MS (the Heart 
of the MS Delta). The majority of our students are bused with many of 
them traveling at least 45 minutes one way to school. Our school is 
located in a county that is rural, agrarian, with a population of 
approximately 11,000. A county that was once a thriving farming 
community, but in recent years we have seen many farms disappear, 
industry leave, and many of our best and brightest minds leave our 
community due to the lack of jobs. Humphreys County has a high 
incidence of poverty 96 percent of our students qualify for free and 
reduced lunch, 75 percent come from single parent families, and 45 
percent of our county live in poverty. The educational level of our 
community is low- 53 percent of the population age 25 and above did not 
graduate from high school, while approximately 12 percent of the 
population have college degrees or higher. From these statistics you 
can see that the majority of our students are at-risk educationally, 
culturally, and economically.
    The data reflects that our children live in an environment that is 
educationally and economically deprived. Also from experience in 
working with the students and parents as a teacher, school 
administrator, and now superintendent, I know that our children face 
many economic and educational challenges. Because of their environment 
many of our students enter school language delayed, and lack the proper 
early literacy skills necessary to be successful in school. The lack of 
these skills tend to keep our student behind, and constantly struggling 
to catch up and maintain. But with the proper assessment and 
interventions in the teaching and learning process due to Title I we 
are able to overcome many of these barriers. It is through our Title I 
dollars that we provide our staff with high quality, on-going 
professional development, purchase supplies/materials and equipment 
needed to enhance the learning environment, hire teachers to reduce 
teacher/pupil ratio and support staff (Assistant Teachers) to provide 
extra intervention/prevention for the students.
    However, despite these statistics our school system has grown. Our 
students have some of the best and brightest minds of students anywhere 
in this state or country. Title I funds have aided the Humphreys County 
School District in its quest to provided services for our students and 
their parents, and staff. It has been the mainstay of support to help 
us improve teaching and learning, and increase literacy among our 
parents. We have used Title I funds to provide early literacy training 
for our Pre-K program, Headstart and other day care providers; provide 
teachers training on intervention/prevention strategies, and learning 
styles to increase student achievement; and expose our staff to best 
practices and reform models for school improvement; establish parent 
centers to provide training for our parents in areas such as parenting 
skills, early literacy intervention, and technology. Also funds are 
used to hire home-school liaisons to keep parents informed of the 
academic progress of their children, attendance, and any other 
pertinent information parents need to help their children and stay 
informed of school events and activities. We know that parent 
involvement is crucial in the education of a child, especially if we 
are to see increases in student achievement.
    Funds also are used to provide after school tutorial to meet the 
needs of students who are low achievers or students who have fallen 
through the cracks along the way. This year we encountered a group of 
7th graders who could not read. To meet the needs of these children, we 
hired an excellent remedial teacher through our Title I funds. Theses 
students were placed in a transitional class where instruction was 
modified to meet their needs. These students ability to read increased 
at least one grade level. Not only do we use Title I funds to meet the 
needs of our underachievers but also our average and above average 
students as well. To meet the needs of these students we sponsored a 
Saturday Academy where students and parents engaged in standards based 
math and science activities integrating technology.
    To help ease the transition of our pre-schoolers, each year we 
sponsor a transitional program with our local Headstart agency during 
the extended year program. We will be blending many services with 
Headstart and other child care providers to promote early literacy 
(i.e. professional development, student shadowing programs, etc.)
    Over the years Title I has made a tremendous impact on the quality 
of education our children receive. It is because of these funds, we 
have produced many products like my colleague and former student, Dr. 
Daniel Watkins, Superintendent of Yazoo City Schools.
    Having grown up in this community and attended school there, I am 
fully aware of its needs, its culture, and its economical conditions. I 
know that we must offer our children hope and assure them that they too 
can achieve the American dream if they prepare themselves 
educationally. I strongly believe that the children of Humphreys 
County, MS should be afforded the same educational opportunities as 
student in America's most affluent communities. They, too, deserve the 
best education possible and we are charged as a state, county, 
district, and nation to see that this goal is achieved. For without 
Title I funds, we, the Humphreys County School System would not be able 
to increase student achievement, motivate students, and instill them 
the love of learning and a since of pride.
STATEMENT OF DR. THERRELL MYERS, SUPERINTENDENT, 
            COLUMBUS MUNICIPAL SCHOOL DISTRICT
    Senator Cochran. Thank you very much, Ms. McNair. Let me 
now call on Dr. Therrell Myers.
    Dr. Myers. Thank you very much, Senator Cochran. It's 
indeed a privilege to be a part of this panel this morning on 
behalf of the Columbus School District. Title I provides 
assistance to children in high poverty schools and supports 
other district, State and Federal programs through its focus on 
school wide reform efforts that we have.
    As you've already heard, parental involvement, professional 
development, standards and assessments are critical. They are 
supported through this initiative. The Columbus Municipal 
School District is a very progressive school district in 
innovating strategies, teaching and learning processes. The 
district is guided, we have a very simple vision center to 
where commitment and support equals the ultimate learning 
experience for our children. With this vision, we very much so 
indeed reflect that to providing admission, providing a quality 
education for every child.
    I'm going to give you a little statistics about our 
district and about our children so you can kind of unfold the 
parameters of what's happening in the actual communities we 
live in. Our rolls are approximately 5,300 students. More and 
more of them, or 3,700 or 70 percent of these students live in 
poverty, which is based on free and reduced lunch criteria. We 
are a high poverty school district.
    To illustrate a few of the challenges we face, allow me to 
profile a student from a family struggling to make ends meet. I 
want you, as a policy maker and other legislators or just 
ordinary people, to understand what Title I means to children 
who are growing up poor. Children of poverty face special 
burdens. Most of these children's parents grew up poorly and 
struggled in school themselves. So being in school is not 
really very important to them and to encourage their children. 
Some children have innate resourcefulness, and others do not. 
Some seem to sail through childhood oblivious of the parents' 
economic degree, others do not. Obtaining timely and good 
medical and dental care has often been a problem for these 
families. Some of these children go to bed hungry, particularly 
at the end of the month when the money the parents have set 
aside for food is diverted to pay high cost utility bills. Some 
of the children fall asleep to a parent reading to them, while 
others put themselves to bed on the floor, counting the minutes 
until their parents return home from a night-shift job. Fear is 
a common emotion among many of our students. Some children are 
doing well in school, others have failed several grades, or 
even on the verge of failing more grades, as we're getting our 
data together. Some have great plans for the future, as you've 
heard already testified, others have no plans at all for their 
future.
    As a school leader, I must do everything in my power to 
ensure that public policy increases the prospect for all 
children in the State of Mississippi. The well-being of our 
Nation depends greatly upon our school's ability to provide 
meaningful and challenging educational experiences. For more 
than 14 million American children who are growing up in poor 
families, Title I supports that as an underlying thread.
    Research and experience both show that poverty negatively 
impacts students' academic achievement. Students living in 
poverty are more likely to have lower test scores, more 
learning disabilities, increased special education needs and 
are at a greater risk of dropping out of school. Now, Title I 
focuses on meeting the expected educational needs of children 
living in poverty that you so well know. Using Title I district 
funds, additional State funds and other Federal funds coupled 
together, we provide the direct services to improve academic 
achievement. We also lower our student teacher pupil ratio. 
We're now 1 to 18 in our K through 6 schools. As you've heard 
Dr. Thompson already referenced it, we are using these dollars 
to impact early intervention areas. Our student, our Title I 
allocation is $1.6 million for this school year, and it is 
leveraged with other district, State and Federal funds to meet 
the needs of our children in K through 6. The services advance 
student achievement, enabling them to meet the State's 
challenging academic performance, as you've already heard the 
new accountability system. These funds also are lying in our 
district to counteract many of them from effects of poverty. 
Due to the Title I revenues, this is what happens: Students 
receive more direct instruction, extended learning 
opportunities and access to enriching instructional materials. 
Teachers are participating in professional development funded 
through Title I, which is infused with the most current 
research phase instructional practices, so that our students do 
have the chance, the aids and the desire to be successful.
    Now, due to the early interventions made by Title I, our 
district's dropout rate and graduation rate has improved. Our 
dropout rate in Columbus has decreased to 3.7 percent this 
year, on the most recent data, from a previous year of 8.2 
percent. Our graduation rate is now 78.35 percent. And we're 
not overjoyed with that, we're extremely pleased every student 
entering the ninth grade, four years later, 78.35 percent are 
successfully completing all the requirements in Mississippi 
schools.
    In closing, according to the most recent National education 
goals report that Dr. Thompson has already referenced about 
Mississippi, Mississippi is showing gains in the fourth grade 
math and reading scores. In mathematics, Mississippi increased 
the top, the average, the bottom fortiles and became 1 of only 
8 States to tighten the achievement gap between the top and 
bottom fortiles. These academic means are possible, in part, 
due to the Title I Program that is allowing us to move the 
lower fortile and lessen the number there to enhance the upper 
levels for our children in our State.

                           PREPARED STATEMENT

    As we in Columbus continue to strive for excellence in 
education, not only through Title I, but through every effort 
that is made, we simply cannot lower our achievement goals and 
levels. The bench mark has been raised, the bar has been raised 
to fully support high academic achievement for every child. 
Simply said, failure is not an option for children in 
Mississippi.
    [The statement follows:]
                  Prepared Statement of Therrell Myers
    Title I provides assistance to at-risk children in high-poverty 
schools and supports other district, state, and Federal programs 
through its focus on school-wide reform efforts, parental involvement, 
professional development, standards, and assessments. Through Title I 
funds, local education agencies are improving basic programs to meet 
the needs of students in high poverty schools.
  --The Columbus Municipal School District (CMSD) is a progressive 
        school district committed to innovative strategies for teaching 
        and learning. The district is guided by the vision, ``Where 
        Commitment and Support Equals the Ultimate Learning Experience 
        . . . Level Five by 2005!'' This vision reflects our deep 
        commitment to becoming the top ranked school district in the 
        state as well as the Nation. Our mission is ``to provide a 
        quality education for every child.''
  --Our enrollment is approximately 5300 students. More importantly, 
        over 3,700 or 70 percent of these students live in poverty, so 
        we are a high poverty school district. To illustrate the 
        challenges we face, allow me to profile a student from a family 
        struggling to make ends meet. I want you as policymakers, 
        legislators, and ordinary people to understand what Title I 
        means to children in poverty.
  --Children, who are growing up poor, face special burdens. Most of 
        these children's parents grew up poor and struggled in school 
        themselves, so being in a school is not really comfortable for 
        them. Some children have an innate resourcefulness and others 
        do not. Some seem to sail through childhood oblivious to their 
        parents' economic struggles, but this is seldom the case. 
        Obtaining timely and good-quality medical and dental care is 
        often a problem. Some of these children go to bed hungry, 
        particularly at the end of the month, when the money their 
        parents have set aside for food is diverted to keep the 
        electricity on.
  --Some of these children fall asleep to a parent reading to them; 
        while others put themselves to bed on the floor, counting the 
        minutes until their parent returns home from a night-shift job. 
        Fear is a common emotion for many low-income children.
  --Some children are doing well in school; others have failed several 
        grades or are on the verge of failing. Some have great plans 
        for their futures while others have no plans at all.
  --As a school leader, I must do everything in my power to ensure that 
        public policy increases the prospects for all of our children. 
        The well-being of our Nation depends greatly upon our schools 
        ability to provide meaningful and challenging educational 
        experiences for the more than 14 million American children who 
        are growing up in poor families.
  --Research and experience both show that poverty negatively impacts 
        students' academic achievement. Students living in poverty are 
        more likely to have low test scores, more learning 
        disabilities, increased special education needs, and are at a 
        greater risk of dropping out of school.
  --Title I focuses on meeting the expansive educational needs of 
        children living in poverty. Using Title I, district, state, and 
        other Federal funds, our district provides direct services to 
        improve the academic achievement potential of these children 
        living in poverty. In our K-6 schools, Title I funds allow our 
        district to reduce class size (Our average class size is now 
        18). Title I provides supplementary instructional materials and 
        research-based professional development for our teachers. Title 
        I allows us to extend the school day and school year to provide 
        these students a safe haven, filled with enriching educational 
        experiences.
  --The district's annual Title I allocation, $1.6 million in fiscal 
        year 2000, is leveraged with other district, state, and Federal 
        funds, to allow Columbus Schools to provide direct services to 
        students in our low income Kindergarten through 6th grade 
        schools. The services advance student achievement enabling them 
        to meet the state's challenging academic performance standards.
  --Title I funding is allowing our district to counteract many of the 
        insurmountable affects of poverty. Due to Title I revenues, 
        students receive more direct instruction, extended learning 
        opportunities, and access to enriching instructional materials. 
        Teachers, participating in professional development funded 
        through Title I, are infusing research-based instructional 
        practices into the classroom. The evidence is clear; due to 
        these direct services our lower quartile students are 
        performing better on standardized tests and the special 
        education placements are declining in the district, from 662 
        last year to 638 this year.
  --Due to these early interventions made possible by Title I, our 
        district's dropout and graduation rates are improving. Our 
        dropout rate has decreased to 3.7 percent this year from 
        previous years 8.2 percent and our graduation rate is now 78.35 
        percent.
  --There is no doubt, Title I funding allows our district to better 
        serve our children living in poverty. With an increase in Title 
        I funding, our district will continue to offer direct services 
        to students to decrease class size, offer enriching extended 
        day and extended year academic based programs, and expand 
        teacher capacity through research-based professional 
        development. Our teachers need training in the use of 
        technology, effective discipline methods, time management, and 
        crisis intervention. Quality professional development at the 
        local level is a tremendous need.
  --In closing, according to the most recent National Education Goals 
        Panel Report, Mississippi is showing gains in both 4th grade 
        math and reading scores. In Mathematics, Mississippi increased 
        the top, average, and bottom quartile scores and became one of 
        only eight states to tighten the achievement gap between the 
        top and bottom quartiles. In Reading, Mississippi also 
        increased scores, especially in the lower quartile, further 
        narrowing the gap between top and bottom quartiles. We feel 
        that these gains are an express result of direct services 
        provided to our students, services largely in part made 
        possible through Title I funding.
  --As we continue to strive for excellence in education, Columbus 
        Municipal School District requests not only a continuation of 
        Title I funding, but an increase in Title I funding, to further 
        support the district's high achievement expectations for every 
        student. By increasing Title I funding, all of our students, 
        including the 3,700 living in poverty, will continue to be 
        assured a quality education, and the ability, motivation, and 
        confidence to learn throughout a lifetime.

STATEMENT OF DR. DANIEL WATKINS, SUPERINTENDENT, YAZOO 
            CITY MUNICIPAL SCHOOL DISTRICT
    Senator Cochran. Thank you very much, Dr. Myers. And we'll 
hear from Dr. Daniel Watkins.
    Dr. Watkins. Good morning.
    Senator Cochran. Good morning.
    Dr. Watkins. I want to start by saying that, in Yazoo City, 
many of our parents work outside of Yazoo City, in Madison 
County, Hinds County, as well as Warren County. And I want to 
go on record as saying that without extended day and extended 
year, we would be in a terrible position, but I also have 
records and stats to support all of what I'm going to say, but 
I want to offer myself as a living testimony to what Title I 
has meant to Mississippi, to the Delta and my family.
    My name is Daniel Watkins, and I am the superintendent of 
the Yazoo City public schools. I am a 1976 graduate of 
Humphreys County High School. I began my educational career in 
1964 in Louise, my home town. It was 1971 that schools combined 
in Humphreys County, and my mother, I mention again, was a 
school bus driver. She was also a single parent with 7 
children, and we would rise at 4 in the morning, and we would 
depart on the school bus at 4:30 to go all over Louise to drive 
to Belzoni.
    I also wanted to mention that my first 3 years at 
elementary school, I had a severe speech impediment that 
allowed me to be quiet when I knew answers, but I do remember 
Title I funding, a speech pathologist, to bring me out of my 
shyness. Again, I grew up in a small delta town called Louise, 
with my mother being the mother, the father, a provider and 
whatever else she needed to be. Besides school, our work 
consisted of working in the cotton fields. My mother drove a 
school bus and worked in the school's cafeteria. One of the 
happiest days of my mother's life was when she received her 
GED. Needless to say, she stressed education daily and yearly 
throughout my grade school life. There were many needs in our 
school system back then, to the extent that I did not quite 
understand, but I have since learned that through the 
Elementary and Secondary Education Act, the Federal Government 
reduced many of these needs. In my later years, I have seen the 
happiness of my mother as she observes her daughter working 
with a parenting program in Louisville, Mississippi, and two of 
her sons receiving Ph.D's. Without the increasing help of Title 
I, none of these could have been achieved in the lives of a 
poor Delta family.
    I had the opportunity in the mid 1990's to become principal 
of the middle school that is in an impoverished area here in 
Jackson. It was there that I experienced first hand the 
tremendous importance of Title I. This school is known for its 
athletics, discipline problems, low attendance and feeble 
parent support, not to mention low achievement. I was able to 
sit down with students, teachers, parents and community 
residents to address the question what can we do. We kept it 
very simple. We would use Title I money to tutor mornings and 
evenings in the areas of reading and math. In addition, we 
would enhance this process by simultaneously computerizing the 
whole school and offering computer literacy courses to teachers 
and parents. We then would utilize Title I money to address 
weaknesses of teachers through innovative professional 
development. A parent center was created on campus to aid 
parents in any way possible to get students to achieve. In a 
period of 4 years, all of the problems before mentioned 
decreased significantly. The morale sky-rocketed, and this 
school became one of the top achieving schools in Jackson, with 
students from disadvantaged areas. Without the increasing help 
of Title I, none of these things could have been achieved.
    As superintendent of Yazoo City public schools, 15 miles 
south of where I grew up and 35 miles north of where I was 
principal, I see some disturbing problems. There's very little 
formal education from infants to 3 years old. Teen pregnancy is 
extremely high. There is an alarming single parent home 
percentage. There's very high poverty rates. And all of these 
variables sustain low student achievement. Though raising the 
achievement of this school system is a challenge, it is not 
insoluble. It will take efforts of all who are concerned. We 
must have programs early and extended day and extended year. We 
must have programs to address the many needs of this community 
and others. It is imperative that we continue in a progressive 
mode. The community of Yazoo City has not only become 
accustomed to certain programs, but has become dependent. The 
Title I programs are a continual and integral part in the life 
of a Yazoo City student. Without the increasing help of Title 
I, few of the previously mentioned variables that diminish 
student achievement could be challenged.
    In closing, these are personal thoughts from one who has 
been educated, is an educator and has observed education for 
almost 37 years in Mississippi. This is Mississippi, it does 
contain a delta, it is ranked sometimes the number 50 or 49, 
depending on the year, in education. Whenever I hear of 
reductions in education, my heart goes back to my experiences 
as a student, a teacher, principal, as well as superintendent. 
In my professional opinion, the forces that depress education 
are not giving in. The forces that propel education must be 
enhanced.

                           PREPARED STATEMENT

    I ask myself what would I cut, how can I prioritize when 
lives hang in the balance. If a program can support 20 to 25, 
and 25 shows up, and all of my resources are exhausted, what 
criteria can I use. How do I face the 5 to tell them no. 
Somehow, through my life, I was always blessed to be between 
that number 20 and that number 25. There are a lot of 20 to 
25's out there hoping and praying that all who are involved 
continue to march forward without a moment of retreat. Without 
the increasing help of Title I, we could lose success and 
achievement and lives. Thank you, Senator.
    [The statement follows:]
                  Prepared Statement of Daniel Watkins
    My name is Daniel Watkins, and I am the superintendent of the Yazoo 
City Public Schools. I am a 1976 graduate of Humphreys County High 
School. I grew up in a small delta town called Louise with my mother 
being the mother, father, a provider and whatever else she needed to 
be. Besides school, our work consisted of working in the cotton fields. 
My mother drove a school bus and worked in the school's cafeteria. One 
of the happiest days in my mother's life was when she received her GED. 
Needless to say, she stressed education daily and yearly throughout my 
grade school life. There were many needs in our school system back then 
to the extent that I did not quite understand. But I have since learned 
that through the Elementary and Secondary Education Act (ESEA), the 
Federal government reduced many of the needs. In my later years, I have 
seen the happiness of my mother as she observes her daughter working 
with a parenting program in Louisville, Mississippi, and two of her 
sons receiving Ph.D.s. Without the increasing help of Title I, none of 
these could have been achieved in the lives of a poor delta family.
    I had the opportunity in the mid-nineties to become principal of a 
middle school that is in an impoverished area in Jackson, Mississippi. 
It was there that I experienced first hand the tremendous importance of 
Title I. This school was known for its athletics, discipline problems, 
low attendance, and feeble parent support, not to mention low 
achievement. I was able to sit down with students, teachers, parents, 
and community residents and address the question, ``What can we do?'' 
We kept it very simple. We would use Title I money to tutor mornings 
and evenings in the areas of reading and math. In addition, we would 
enhance this process by simultaneously computerizing the whole school 
and offering computer literacy courses to teachers and parents. We then 
would utilize Title I money to address weaknesses of teachers through 
innovative professional development. A parent center was created on 
campus to aid parents in any way possible to get students to achieve. 
In a period of four years, all of the problems aforementioned decreased 
significantly. The morale skyrocketed and this school became one of the 
top achieving schools in Jackson with students from disadvantaged 
areas. Without the increasing help of Title I, none of these things 
could have been achieved.
    As superintendent of the Yazoo City Public Schools, fifteen miles 
south of where I grew up, and thirty-five miles north of where I was 
principal, I see some disturbing problems. There is very little formal 
education from infancy to three. Teen pregnancy is extremely high. 
There is an alarming single parent home percentage. There is a very 
high poverty rate. All of these variables sustain low student 
achievement.
    Though raising the achievement of this school system is a 
challenge, it is not insurmountable. It will take the efforts of all 
who are concerned. We must have programs early and extended day. We 
must have an extended year. We must have programs to address the many 
needs of this community and others. It is imperative that we continue 
in a progressive mode. The community of Yazoo City has not only become 
accustomed to such programs, but has become dependent. The Title I 
programs are a continuing integral part in the life of a Yazoo City 
student. Without the increasing help of Title I, few of the previously 
mentioned variables that diminish student achievement could be 
challenged.
    In closing, these are personal thoughts from one who has been 
educated, is an educator and has observed education for almost thirty-
seven years in Mississippi. This is Mississippi, it does contain a 
delta, it is ranked sometimes number 50 or 49 depending on the year in 
education. Whenever I hear of reductions in education, my heart goes 
back to my experiences as a student, a teacher, principal as well as 
superintendent. In my professional opinion the forces that depress 
education are not giving in. The forces that propel education must be 
enhanced. I asked myself, what would I cut? How can I prioritize when 
lives hang in the balances? If a program can support twenty and twenty-
five shows up and all of my resources are exhausted, what criteria can 
I use? How do I face the five to tell them no? Somehow, through my 
life, I was always blessed to be between twenty and twenty-five. There 
are a lot of twenty to twenty-fives' out there hoping and praying that 
all who are involved continues to march forward without a moment of 
retreat.
    Without the increasing help of Title I, we could lose success in 
achievement and lives.

    Senator Cochran. Thank you very much, Dr. Watkins. Very 
interesting and moving testimony that you've given us this 
morning. Your personal experiences are very helpful to us in 
understanding the real life consequences of this program and 
what it can do to broaden the horizons of a young student.
    What was the name of the school? I know you said it, 
probably, and I just didn't write it down and remember it. When 
you were going to school, was there a Title I program in the 
school where you were going and what was the school?
    Dr. Watkins. Yes. My first 6 years was Montgomery 
Elementary and Louise. My last 6 years was at Humphreys County 
in Humphreys County. The school that I was principal of was 
Pineville Middle school here in Jackson.
    Senator Cochran. In your experience as principal and now as 
a superintendent, do you have any suggestions for how the Title 
I Program could be improved? I ask that question because my 
father was a principal and later became superintendent of a 
county school district here in Hinds County, as a matter of 
fact, and I recall his saying one time, this was about when I 
was running for Congress, he wanted me to do something about 
this, that the Federal funds that were coming into schools were 
too tightly restricted in how that they could be used, that 
they needed to be more broadly available so that local 
administrators could have more discretion in the use of the 
funds. Have you found that to be of a problem, or is the modern 
Title I Program more flexible in how you can use the funds that 
are available to you?
    Dr. Watkins. In the last two years, it has become more 
flexible, but I do want to say that we do need more money in 
the way of bringing together the various elements in the 
community. Often times, we could do more things at night, we 
can do more things with the community leaders, we can do more 
things with clergy and single parents, a lot of preventative 
measures. One thing I would like to see in Yazoo City, and I'm 
sure in other communities, is that we can take Federal money 
and offer more programs between the ages of birth to three 
years old. A lot of practices occur in some school systems 
where there is some retention in K and 1 and 2, but it is 
disadvantageous in later years. Some people are adopting the 
philosophy that sometimes it takes two years to give a student 
one year of a sound educational start. I would like to see more 
money, more release of restrictions in the area to better 
benefit early childhood.
    Senator Cochran. There is some suggestion now being made 
about the administration in Washington that we should use the 
head start program more aggressively for intervention and 
reading instruction or maybe diagnostic activity. What's your 
reaction to that?
    Dr. Watkins. There, Senator, I agree. In fact, there in 
Yazoo City, we have 3,000 students. We have two classrooms, one 
each at our K through 2 schools. It is a blended class, with 
head start students there, but we need more. Again, in Yazoo 
City, from infancy to three, the majority of these students 
have no formal education. And even that one or two years in 
head start, even those blended classrooms, it is simply just 
not enough.
    Senator Cochran. Dr. Myers, your experience is similar in 
that you have a city school district that you are responsible 
for administering. Is your reaction to my question to Dr. 
Watkins about the same in terms of the flexibility that you 
have for using Title I funds, did you have any suggestions for 
how the program could be changed to make it more helpful to you 
as an administrator?
    Dr. Myers. Senator Cochran, the flexibility as described 
already has allowed us the ability to look at our needs through 
a comprehensive needs assessment, and it's really working 
tremendously better in terms of the opportunity that we can 
design for our restricted areas, our local areas in a 
restricted process. There is no doubt early intervention is 
where it must be focused to be able to head the early problems 
off, to be able to correct those.
    In our school district, we can give you some sample of 
this, we have a $34 million operational budget. We spend 
between $8 and $9 million annually trying to help children 
catch up. And we simply, in this country, cannot continue, and 
in our school districts. We must be able to advance that in 
those areas of need and talk about higher level of functioning 
versus helping children catch up. So coming to school ready to 
learn is very important. The flexibility is there now to allow 
us to do that. And as you shared earlier, we have some entering 
into agreements with our head start.
    Post communications are really functioning now. And to give 
you a prime example of how it works, we had 175 child care 
providers in our schools this past month that we're going to 
train so that they know what is expected for a child to be able 
to enter school ready to learn. This flexibility must continue. 
We must be able to make the local decisions, the decisions 
locally based on our population.
    Senator Cochran. You mentioned that you received $1.6 
million from the Title I Program in your district this year. 
What is that in terms of percentage of the total budget that 
you have to work with?
    Dr. Myers. Well, I think percentage wise, I mean, I can get 
it accurately, I gave you an operational budget of $34 million.
    Senator Cochran. $34 million.
    Dr. Myers. And that 1.6 is only a small supplement to our 
total educational process. And, as prescribed, we use it to 
advance and build upon, if I can use those terms. That's where 
the continued funding and the enhanced funding is so critical, 
because if those dollars reduce, then you can see the impact 
that that begins having in our district.
    Senator Cochran. You probably heard Dr. House when she was 
discussing the reductions that have been passed on from the 
Department of Education in Washington. Allocations were less 
than they were last year, I guess compared from last year. What 
impact has that had in your particular school district?
    Dr. Myers. The impact will be fewer people, fewer services, 
and then we'll have to re-prioritize our priorities to try to 
serve those students in numbers that will remain, and, 
ultimately, that amounts to about 80,000, between 58,000 and 
80,000, based on that percentage formula. So in terms, there's 
fewer teachers, there's fewer diagnostic services made 
available, our professional development with our teachers and 
research-based practices, how to work with young children will 
be lessened. And in the end, we reduce our services to our 
customer.
    Senator Cochran. Ms. McNair, you mentioned that very 
eloquently, all the different programs that you have in your 
school district are designed to try to reach out to those who 
are disadvantaged and maybe don't have the right kind of 
leadership at home or in their community. The 45 percent figure 
you gave us, people in poverty in the district, is that the 
student population, that's the student population, so that 
helps determine the amount of Title I funds that you get. Do 
you have a figure for the amount of money that you actually get 
in Humphreys County?
    Ms. McNair. In Title I?
    Senator Cochran. In Title I.
    Ms. McNair. $1.3 million.
    Senator Cochran. $1.3 million. What is your reaction to the 
questions that I've asked to both Dr. Watkins and Dr. Myers, 
and that is the flexibility in the way the program is designed, 
do you have any suggestions about changes in the program, 
except for increases in money? I know we need more money, 
generally, we can use it in our State, but are there any 
program changes that you would recommend?
    Ms. McNair. I think in the recent years, we've had a lot 
more flexibility. And like Dr. Myers, we do our needs 
assessment and we prioritize on these needs, and we prioritize 
based on those needs. So we appreciate that flexibility, but I, 
too, would like to see more emphasis on early childhood 
education. That if we can bridge that gap in our district, we 
can have a transition piece with our head start program. This 
past week, well, yesterday, as a matter of fact, we brought in 
all of our head start staff, head start staff and early pre-K 
providers into a training on what they should be doing with 
educating preschool children, but we need a lot more in my 
community. Education is not a top priority. We have a lot of 
homes where our parents are functionally illiterate. So if we 
can intervene in the lives of those children early on from 
birth, then that child will enter school ready to learn and 
come with those social skills and those other prerequisites 
necessary to be successful. So if we could do a lot more with 
early childhood, and I also would like to see something done 
with literacy within the community, if we can do that in my 
community, we can see student achievement.
    Senator Cochran. Thank you. Dr. House, what do you consider 
to be the most beneficial aspect of the Title I Program, if you 
can single out one or two things?
    Dr. House. You really already addressed it, again, the 
flexibility of the program. Twenty years ago, I was a Title I 
teacher. And at that point in time, the program was run like 
targeted assistance programs are run now, and that really tied 
your hands in doing some things that would benefit children in 
schools. The fact that we now have school wide programs, I 
believe, is a wonderful benefit. And seeing that comprehensive 
change taking place throughout the schools really support what 
Title I is intended to do. So if I could say anything that's 
beneficial, that would be the number one thing, and I hope all 
superintendents and principals would agree with that.
    I also think the fact that we, as a State, are working 
collaboratively under the umbrella of Title I. It is extremely 
beneficial, you've heard mentioned already, about the blending 
of services with Title I and pre-K and head start. And the fact 
that that's encouraged through Title I office in Washington is 
a real benefit. That flexibility with funding of those programs 
and allowing those programs to work collaboratively is, indeed, 
meeting the needs of our children. So I definitely think that 
that is a benefit, as well.
    One other benefit, if I may mention, that's really a State 
concern, is the waiver system that is in use for Title I. As 
you may well know, this State has been working for several 
years to design assessment accountability system that we 
believe is premier. That does not occur quickly. And the fact 
that the USDE was willing to provide us a waiver of time to 
allow us to do this the right way has been most beneficial for 
us as a State. We're doing all the right steps and not rushing 
what the system is going to look like, so that all of the 
players have a part, the system is being taken apart and 
reviewed in every possible way to make it be appropriate and 
really, really top quality. So the waiver system certainly has 
been a benefit for our State.
    Senator Cochran. Have you sought waivers, and if you have, 
have they been approved to help the State meet the goals of 
Title I?
    Dr. House. Yes, sir, we have, and they have been approved. 
And we really appreciate the way the USDE has worked with us. 
They've been most helpful.
    Senator Cochran. Can you identify any Title I requirements 
that are too cumbersome?
    Dr. House. Yes, sir. I'm sorry.
    Senator Cochran. You have a long list or a short list?
    Dr. House. It's about two or three items. This is almost 
contradictory, but I don't want it to be. School requirement 
used to be a wonderful way to approach Title I services, but 
having a 50 percent requirement on free and reduced lunches 
leaves out a lot of schools that have 48 percent free and 
reduced lunches, 46 percent free and reduced lunch. And I 
believe that I read in President Bush's No Child Left Behind 
was a consideration of lowering that to 40 percent. And we 
certainly believe that that can really dramatically improve the 
programs that are being provided in the schools that are 
currently operating target assistance programs and allow them 
to really get after that comprehensive school reform.
    One of the other issues that the staff in my office deals 
with on a daily basis is how private schools are included with 
the Title I Program. What we would like to suggest, as an 
office, is that there would be some consideration of having the 
private schools actually be held a little more accountable for 
how they utilize their funds. Right now, as you know, the 
funding follows the student. The funding is really not given to 
the private school, per say, but, rather, is taken from the 
public school arena and sent with the student to attend the 
private school. Right now, as the regulation stands, the public 
schools have been held accountable for every aspect of the 
utilization of those funds. We do have all of our public 
schools going to the private schools to monitor the use of 
those funds, but they cannot be there every day. And sometimes 
they are cited for regulatory exceptions that really were the 
cause of how the private school utilized the funding. We aren't 
proposing that the funds don't follow the students to the 
private schools, but we do believe they should have a more 
significant role in being held accountable for those funds than 
they currently are.
    The last thing that I would like to emphasize today is the 
importance of early childhood education. And the more we can do 
with Title I funds to give our youngsters the program head 
start, the stronger our program's going to be for our State.
    Senator Cochran. Do you have any suggestions about the way 
allocations to our State are made? Should there be changes in 
what Dr. Thompson referred to as the standard that is used for 
determining allocation? How would you suggest changing that, so 
that our State would get our fair share of funding?
    Dr. House. Well, I'm certainly not a statistician, so I 
cannot get into all the specifics of the statistical formula, 
but I would like to say a couple of things about that. One, we 
know that there's a huge discrepancy in what the poverty data 
indicate and what our free and reduced lunch data indicate, and 
we know that there's some differences in how those are 
calculated. We do have the fortune of having a wonderful 
statistician here on staff, Dr. Steve Hegler, who I believe is 
right behind me. And Dr. Hegler has prepared an extensive 
report that is provided for you as part of the official record. 
He's actually spent the last month doing some very extensive 
research on looking at funding formulas through a variety of 
different avenues and how those funding formulas could, 
perhaps, be reutilized to allowing Mississippi to, indeed, get 
a share of the funding that better represents the numbers that 
we're seeing on our free and reduced lunch programs, because 
there is a tremendous discrepancy right now.
    Senator Cochran. That would be very helpful to us as we're 
in the process of reauthorizing the Elementary and Secondary 
Education Act. Thank you very much for that.
    Dr. Thompson, how does the accountability model used by the 
Department of Education measure the adequate yearly progress of 
student achievement as required by Title I regulations?
    Dr. Thompson. Senator, as you can tell, there's great 
people in this building, great people in the State department, 
I don't have to do much of that, but we started this concept 
two and a half years ago, and what we know is really important 
is that there's so many of our children come to school with 
great deprivation, as you heard from all of our folks. It was 
important for us to develop a model that did two things, that, 
one, measured progress over time, same students. That's very 
important. Lots of people that have been measuring, you know, 
last year's fourth grade versus this year's fourth grade, that 
is not the kind of progress we want to monitor. We monitor that 
so we have that information, but it's much more important to 
measure that child coming at the end of second grade, how much 
did they grow from the second grade to third grade. So the very 
essence of our accountability system and our assessment system 
is based on, number one, what should Mississippi children know. 
And we brought in our teachers from all over the State, and 
everything we're testing new, that curriculum has been 
reviewed, revised and it reflects our high National standard, 
we used all of the National standards, National math standards, 
english, reading, all of those things, and reflected it in our 
curriculum.
    And then we've done something else a lot of States haven't 
done, we built the support system for that. We didn't just go 
out and tell those teachers you're on your own. We developed 
training, we have resources that were put into that, and then 
we've developed standards, how much of that should students 
know. Again, we're using our teachers that are out there every 
single day, looking at the National standards, coming in, 
helping with the assessment standards. We chose the assessment 
system that parallels exactly what that curriculum is. In other 
words, there should be no surprises. Children should know. But 
what we're doing, we're changing our system so that now we're 
not looking at the system as a whole, we're looking at each 
individual school. So every school in the State of Mississippi 
will be held accountable for two things; one, the amount of 
growth. We will give each school a growth expectation, and 
based on where the children are when they get here, and that's 
fate, because we expect them to learn. Whether they're high 
achievement, low achievement, middle achievement, this is where 
the children are when you got them, this is how much you are 
expected to move them. That reflects a reasonable amount of 
growth, basically correlated with one year's worth of 
achievement and one year's worth of school wherever they are.
    The second thing we're looking at is each school and each 
child, so that every child in grades 3 through 8 will have this 
kind of information to actually start the first test at the end 
of second grade to set the bench mark so we can measure that 
growth. The second thing to look at is proficiency levels. I 
know you know, when we started this, they were not required in 
the Federal legislation. Now since we've been doing this, I 
don't think the Federal Government took it from us, 
necessarily, but that is a part of what we have to do. We will 
be setting proficiency levels for every child, and so we'll be 
able to report to you and everyone else, every parent walks in 
the door, we can show them how much that child grew during the 
year, we can show them at what proficiency level they are 
functioning. The four levels that we've chosen are at the 
highest level, which is advanced, and then we use the 
proficient, and we use the basic, and then the last one is 
minimum. So we'll be able to tell the parent where their child 
is functioning. We will also be able to tell, in each school, 
what percentage of children in that school are performing at 
grade level. And so we're measuring it two different ways, 
we're measuring the growth of each school and each child, and 
we're measuring it by the number of students proficient at that 
school. We think that's really the right way to do it.
    Senator Cochran. We know that the amount of dollars that 
come to Mississippi is very substantial, I think $126 million 
is the figure that I mentioned in my opening statement. What 
would be the practical result if those funds were substantially 
reduced or limited and you weren't getting those funds, what 
would be the consequences for the State of Mississippi?
    Dr. Thompson. My mind is racing for an appropriate word, 
and it's coming up, tragedy doesn't do it. I mean, you could 
just think of the most devastating word you can think of, 
because so many, these people sitting at this table, I know 
what sort of circumstances they work in, I go out and I see, 
and they're making incredible progress with limited resources. 
And while 1.6 million may not sound like a whole lot when it's 
close to 34 million, I know what that means to the total piece, 
because all of these administrators are incredible at leverage, 
and they're using dollars from every which way. And for them to 
have to reduce that is going to reduce direct services to 
children. And as we move into this new model of accountability, 
they're going to be dependent more on Title I funds than they 
ever did, because those are the funds they're going to use to 
help these children meet these higher standards that, quite 
frankly, are going to change these children's lives. It's going 
to give our children the same opportunity that every other 
child in America has. It would just be unfortunate, Senator, if 
these funds were cut.
    Senator Cochran. My staff member, Ann Copland, wrote me a 
note a while ago when Dr. House was talking about the fact that 
during the current year, there has been some changes by the 
Department of Education, and the amount of money we thought we 
were going to get. We had written into the Federal law a hold 
harmless provision, so that funds wouldn't be reduced, but in 
spite of that, this pro rata reduction is being made in all 
States, and that has been brought to the attention of our 
subcommittee and our Chairman, Senator Arlen Specter, and I'm 
advised that we're probably going to request that the 
appropriations committee provide a supplemental appropriation 
and try to address that problem by restoring those funds. 
Whether that will be successful or not, I can't predict right 
now, but it does have the attention of our committee and 
efforts have already begun.
    Let me say that my impression of the information that we've 
received this morning through the testimony and statements that 
have been provided to the committee, the very helpful 
information that's been compiled and provided, which is part of 
the record, will be very helpful and persuasive to our 
committee as we proceed through the appropriations process this 
year and the reauthorization process of the Elementary and 
Secondary Education Act. So I personally appreciate your 
willingness to help me, and on behalf of the committee, get a 
better understanding of the practical consequences of the 
benefits of these programs and your sharing information and 
your experiences, personal in many cases, about how important 
this program can be. I think this has given us an impressive 
and important body of information to help us seek ways to get 
continued funding for Title I approved in Washington and 
specifically for States like Mississippi, Mississippi included, 
that have high percentages of disadvantaged students.
    I'm also going to make sure that we keep our hearing record 
open so that those who want to submit additional information, 
those in the audience who may want to write a letter or make a 
statement, can do so in writing and submit it to me, Thad 
Cochran, United States Senate, Washington, D.C., I'll get it, 
and we'll make it a part of our hearing record. We do 
appreciate the attendance of many here in the audience today. I 
had a chance to talk, for example, to Ms. Gail Warner from 
Tupelo, who's the Title I coordinator in Tupelo, who had 
written a letter, which we'll make a part of the record, and 
invite her to furnish even more information about how the Title 
I Program works in the Tupelo School District. And others who 
have experiences of that kind can be helpful to us in compiling 
an impressive body of information and facts to support our 
articles in behalf of the Title I Program.
    [The information follows:]

     Prepared Statement of the Office of Research and Statistics, 
                  Mississippi Department of Education

                              introduction
    This report was prepared to help answer questions concerning the 
formulas used by the U.S. Department of Education (USDE) to make 
allocations of Title 1 funds to states and individual school districts. 
An examination of printed materials related to the Title 1 allocation 
process revealed that much work has been done to develop useful methods 
for determining the number of school-age children in poverty in 
counties and school districts throughout the nation. There are, 
however, efforts underway to improve those estimates. In addition to 
the review of the literature, several sources of data were collected 
and analyses were conducted to examine differences and relationships in 
the data used for allocating Title 1 funds to school districts in 
Mississippi.
    This report is divided into two sections. The first section is a 
review of the literature and is comprised, mainly, of text extracted or 
adapted from reports of the National Research Council. The reports are 
available from the National Academy Press in Washington, D.C. The 
second section of the report comprises a presentation of the analysis 
of poverty and population data for Mississippi school districts.
                  section 1: review of the literature
Background
    The U.S. Department of Education uses estimates of school-age 
children in poverty to allocate Federal funds under Title I of the 
Elementary and Secondary Education Act for education programs to aid 
disadvantaged children. Historically, the allocations have been made by 
a two-stage process: the department's role has been to allocate Title I 
funds to counties; the states have then distributed these funds to 
school districts. Until recently, the department has based the county 
allocations on the numbers and proportions of poor school-age children 
in each county from the most recent decennial census. States have used 
several different data sources, such as the decennial census and the 
National School Lunch Program, to distribute the department's county 
allocations to districts.
    In late 1992, the U.S. Census Bureau organized the Small Area 
Income and Poverty Estimates (SAIPE) Program to develop methods for 
producing postcensal income and poverty estimates for states and 
counties by using multiple data sources and innovative statistical 
methods.
    The development of accurate county-level estimates of population 
and poverty is very challenging. For Title I allocations, there is no 
single administrative or survey data source that provides sufficient 
information with which to develop reliable direct estimates. The March 
Income Supplement to the Current Population Survey (CPS) can provide 
reasonably reliable annual direct estimates of population 
characteristics such as the number and proportion of poor children at 
the national level and possibly for the largest states. However, the 
CPS cannot provide direct estimates for the majority of counties. The 
CPS data are used as the basis for creating usable estimates for 
counties through the application of statistical estimation techniques. 
These estimates are called ``model-based'' or ``indirect'' estimates. 
The model-based estimators use data from several areas, time periods, 
or data sources, including the previous census, to improve the 
precision of estimates for small areas.
    In 1994 Congress authorized the Bureau of the Census to provide 
updated estimates of poor school-age children every 2 years, to begin 
in 1996 with estimates for counties and in 1998 with estimates for 
school districts. The Department of Education is to use the school 
district estimates to allocate Title I basic and concentration grants 
directly to districts for the 1999-2000 and later school years, unless 
the Secretaries of Education and Commerce determine that they are 
``inappropriate or unreliable'' on the basis of a study by the National 
Research Council. That study was carried out by the Committee on 
National Statistics' Panel on Estimates of Poverty for Small Geographic 
Areas.
    Under a direct allocation procedure, there would be no allocations 
to counties and, hence, no need for states to distribute them to school 
districts. However, a provision in the 1994 legislation permits states 
to aggregate the department's allocation amounts for all districts in a 
state that have fewer than 20,000 people and to redistribute the 
aggregate amount among those districts by using some other method that 
the department approves.
School District Estimates
    As a result of the lack of data at the school district level, the 
Census Bureau has been constrained to use for school districts a very 
simple model-based method referred to as synthetic estimation. This 
method for producing updated school district estimates of poor school-
age children is a basic synthetic shares approach, in which the 
proportions of poor school-age children in school districts within each 
county in 1989 (as measured by the 1990 census) are applied to updated 
estimates of numbers of poor school-age children from a statistical 
model for counties. The Census Bureau decided that the most recent 
school district estimates it could produce by the end of 1998 (for the 
Title I allocations in spring 1999) were for school-age children in 
1996 who were living in and related to a family in poverty in 1995. 
Reasons for this decision included the time required to ascertain the 
changes in school district boundaries since the 1990 census and the 1-2 
year lag in the availability of the data sources used in the county 
statistical model.
    The synthetic shares method assumes that the shares of poor school-
age children among school districts in each county in 1995 are the same 
as they were in 1989. Consequently, the synthetic estimates reflect 
only the changes in school-age poverty from 1989 to 1995 that occurred 
in each county as a whole. The estimates do not capture any variation 
in school-age poverty among the districts within each county that 
occurred since the 1990 census.
    The synthetic shares method was used because no administrative data 
are available for a model for school districts (which would be similar 
to the Census Bureau's county model) that could capture changes in 
poverty for school districts within counties. There are several reasons 
for the lack of data and the difficulties of developing estimates for 
school districts: most districts are small in size, many district 
boundaries do not coincide with the boundaries for counties or other 
governmental units, district boundaries can and often do change, and 
some districts do not serve all elementary and secondary grades.
Evaluation of Small-Area Estimates of School-Age Children in Poverty
    The National Research Council (NRC) was charged with evaluating the 
methods used by the Census Bureau for producing estimates for counties 
and school districts. To accomplish this task, the NRC formed the Panel 
on Estimates of Poverty for Small Geographic Areas. The panel comprises 
members of the NRC Committee on National Statistics.
    In assessing the Census Bureau's 1995 school district estimates of 
the numbers of poor school-age children for use in Title I allocations 
for the 1999-2000 school year, the panel first examined the 1995 county 
estimates that were produced by the Census Bureau's statistical model. 
Although the Department of Education would not use the county estimates 
for Title I allocations if it were to make allocations directly to 
school districts, the county estimates are central to the synthetic 
shares method for district estimates.
    The model that was used to produce the 1995 county estimates is 
essentially the same model that was used to produce county estimates of 
poor school-age children for 1993. On the basis of internal and 
external evaluations that were conducted on alternative 1993 county 
models, which resulted in some changes in the Census Bureau's original 
1993 county model, the panel supported the use of revised 1993 county 
estimates for Title I allocations for the 1998-1999 school year. 
Additional evaluations of the 1995 county model, which focused on its 
behavior when estimated for several time periods, confirmed that the 
county model is performing well. A separate estimation procedure for 
Puerto Rico, which is treated as a single county and school district 
for Title I allocations, also appears to be reasonable, given the 
available data.
    Evaluations of the Census Bureau's synthetic procedure for school 
districts over the 1980-1990 period revealed large differences for many 
districts between the synthetic estimates of poor school-age children 
and the comparison estimates from the 1990 census; the large 
differences occur mainly for small districts. In contrast, the 
estimates for school districts with 40,000 or more people in 1990 are 
not markedly worse than the county model estimates. Also, a number of 
districts are coterminous with counties, so that their estimates come 
from the county model. Together, these two groups of districts comprise 
only 13 percent of the districts (as of 1990), but they contain 62 
percent of all school-age children.
    Although the Census Bureau's 1995 estimates of poor school-age 
children have potentially large errors for many school districts, the 
panel nonetheless concluded that they are not inappropriate or 
unreliable to use for direct Title I allocations to districts as 
intended by the 1994 legislation. In reaching this conclusion, the 
panel interpreted ``inappropriate and unreliable'' in a relative sense. 
Some set of estimates must be used to distribute Title I funds to 
school districts. The panel concluded that the Census Bureau's 1995 
estimates are generally as good as and, in some instances, better than 
estimates that are currently being used. Also, while further research 
is needed, a limited evaluation suggested that school lunch data are 
not appreciably better than the 1990 census for constructing within-
county school district shares of poor school-age children.
    A benefit of using the synthetic shares estimates is that the 
department is able to determine eligibility of school districts for 
both basic and concentration Title I grants on the basis of a 
consistent set of estimates nationwide. Also, use of the synthetic 
shares estimates for direct allocation of concentration grants responds 
to the intent of the 1994 legislation that eligible districts be able 
to receive concentration grants even when they are in counties that 
would not be eligible under the two-stage allocation process.
    The Census Bureau's updated estimates of poor school-age children 
for counties are the only postcensal small-area estimates of poverty 
that have been thoroughly evaluated. It is important that they be 
considered in the direct allocations to school districts, as is done 
when the allocations are based on the synthetic estimates. If a state 
chooses to reallocate the amounts for school districts with less than 
20,000 population, the county estimates can be reflected in the 
allocations by grouping the allocations for small size districts by 
county and redistributing the county totals to those districts.
Some Characteristics of Funding Formulas
    For purposes of allocating funds or other related program purposes, 
it is important that poverty and population estimates be sufficiently 
reliable. Even with estimates that exhibit an adequate degree of 
reliability, there are generally tradeoffs among competing funding 
goals or purposes. For fund allocation, it is important to consider 
features of the specific allocation formula, some of which may be 
sensitive to the level of accuracy in the estimates.
    Studies have shown that, in general, a higher sampling error 
together with a threshold, a hold harmless provision, or both, tend to 
equalize the funding amount per eligible person (poor child in the 
Title I program) across areas. This result is counter to the goal of a 
program, such as Title I concentration grants, that is designed to 
provide extra funding (beyond the basic grant) to needier areas.
    It has been suggested that moving-average estimates could serve the 
goal of cushioning budgets against fund decreases without misallocating 
funding as much as a hold-harmless provision.
    The NRC Committee on National Standards is planning to conduct 
additional work on issues regarding the interactions among data 
sources, estimation procedures, and allocation formulas.
NRC Recommendations for Small Area Estimates and Title 1 Funding
    Any state plan approved by the Department of Education for 
redistributing the sum of the department's allocations for school 
districts with under 20,000 population should maintain the county total 
amounts for such districts to the extent possible.
    The Department of Education should undertake a thorough study of 
the direct allocation of Title I funds to school districts that was 
begun in 1999-2000. The study should examine the allocation methods 
used and assess the results.
    It is important to continue an active program of research and 
development for methods of estimating poverty for school-age children 
at the county and school district levels. The county model is 
performing well, but, like other models, it can probably be improved. 
Work should also be pursued to improve the current synthetic shares 
method for school district estimates. Research on ways to produce the 
estimates with data that are closer in time to the year for which the 
allocations are to be made should also be pursued.
    Improving school district estimates so that they reflect within-
county, as well as between-county, changes in school-age poverty over 
time will require a substantial research and development effort. It is 
particularly important to obtain relevant administrative records data 
for districts, such as income tax return data coded to the district 
level. Such administrative data, together with data from the 2000 
census and the planned American Community Survey, could provide the 
means for developing a much improved model-based approach for 
estimating school-age poverty at the district level.
    For its work in small-area poverty estimation, the Census Bureau 
needs to provide adequate staff and other resources on a continuing 
basis. Because small-area estimates of poverty support a range of 
important public policy needs for Federal, state, and local 
governments, the Bureau's program should include not only data and 
model development and production, but also thorough evaluation and 
detailed documentation of each set of estimates produced.
    While it may be possible, in the future, to develop more accurate 
and timely income and poverty estimates for small areas by using new 
improved sources of data from household surveys and administrative 
records, none of the existing or planned surveys or administrative 
records can, by itself, provide direct estimates of sufficient 
reliability, timeliness, and quality. Therefore, in the near future, 
the SAIPE program should continue to use models that combine data from 
more than one source to produce indirect estimates.
    Looking to the future, as more data become available from such 
sources as the American Community Survey and the 2000 census, the use 
of time-series and multivariate modeling techniques that make use of 
multiple years of data from the same survey, separate surveys, or both, 
could be advantageous. Work on such models should proceed, building on 
the Census Bureau's previous efforts along these lines.
    A process for geo-coding school districts using addresses would 
assist in the development of direct income and poverty estimates for 
school districts. Currently, IRS, Food Stamp, and other administrative 
records can only be associated with a particular county, not with a 
particular school district.
    Note: Most of the text in the above section was extracted from 
Small-Area Estimates of School-Age Children in Poverty--Interim Report 
3: Evaluation of 1995 County and School District Estimates for Title I 
Allocations, Panel on Estimates of Poverty for Small Geographic Areas, 
Committee on National Statistics, National Research Council, 
Washington, D.C.: National Academy Press (1999).
    Additional information in this section came from a subsequent 
report--Small Area Income and Poverty Estimates: Priorities for 2000 
and Beyond, Panel on Estimates of Poverty for Small Geographic Areas, 
Committee on National Statistics, National Research Council, 
Washington, D.C.: National Academy Press (2000).
           section 2: title i funds allocation in mississippi
    For the 2000-2001 school year, Title I Basic Grant and 
Concentration Grant allocations were made by USDE for each state and 
for individual school districts in each state based on the SAIPE 
estimates described in Section 1. Each state had to adjust the 
allocations to provide for state administration and school improvement 
and to account for eligible school districts that did not receive an 
allocation. In order to compare the values used by the USDE for 
allocating funds to school districts in Mississippi to other data 
related to student population and student poverty, several sets of data 
were compiled. The 5-17 population estimates and the estimated poverty 
n-counts for Mississippi school districts were extracted from the 
allocation spreadsheets from the USDE. These data were matched by 
district to K-12 enrollment and free and reduced lunch eligibility 
counts from October 1999, and to 1999-2000 school year cumulative free 
and reduced lunch participation data. This section of the report 
presents findings from analyses conducted on those data.
       usde population estimates and district enrollment figures
    There are differences between the USDE estimates of the student 
population (ages 5-17) and the K-12 enrollment figures reported by 
Mississippi school districts. While it would be expected that the 
statewide population estimate would be relatively accurate, there is a 
difference of approximately 50,000 students between the USDE estimates 
and the reported enrollment. The statewide USDE estimate for the 1999-
2000 school year was 551,315 students, while the reported statewide 
enrollment for the end of October 1999 was 501,417 students. The 
difference of 49,898 students represents approximately 10 percent of 
the actual statewide K-12 enrollment.
    On a district by district basis, there were varying differences 
between the USDE estimate and the K-12 enrollment figure (an average 
difference of 19 percent of the actual K-12 enrollment with absolute 
differences for individual districts ranging from 0 percent to 143 
percent).
    For 56 districts (38 percent of the 149 public school districts) 
the USDE estimate was within 10 percent of the actual K-12 enrollment. 
These differences are comparable to the overall statewide difference of 
approximately 10 percent.
    For 30 districts (20 percent), the USDE estimate was 10-19 percent 
greater than the actual enrollment.
    For 37 districts (32 percent) the USDE estimate was greater by at 
least 20 percent, with differences exceeding 50 percent for 11 
districts (4 percent).
    In practically all cases where the USDE estimates disagreed with 
the official K-12 enrollment, the USDE values were greater. However, 
there were 13 cases (9 percent) where the USDE estimates were lower 
than the actual enrollment by 10-19 percent. There were only 3 cases (2 
percent) where the USDE estimate was smaller than the actual enrollment 
by 20 percent or more.
    The USDE estimates are expected to be somewhat greater than the 
actual public school enrollment because the USDE value is an estimate 
of all students between the ages of 5 and 17 residing within the school 
district. The K-12 enrollment includes only public school students--
students attending non-public schools and students being home schooled 
are not included. While the 10 percent variance at the state level may 
be a reasonable difference due to non-public school attendance, the 
population estimate differences from district to district far exceed 
that expected due to this factor. Since the Title 1 allocation formula 
includes thresholds based on poverty rates, the estimated 5- 17 
enrollment (used as a denominator in the poverty rate calculation) 
plays a critical role in determining a district's Title 1 allocation 
(prior to any adjustment due to the hold harmless provision). If the 
population estimates are unreliable, the poverty rates will also be 
unreliable.
Free Lunch Eligibility and Participation
    The SAIPE small area estimates used by the USDE for making Title 1 
allocations do not include information about the National School Lunch 
Program (NSLP). The main reason is the lack of usable data. The only 
Federal agency that has attempted to obtain school lunch data for 
school districts is the National Center for Education Statistics 
(NCES). NCES collects school lunch counts as part of its Common Core of 
Data system in which state educational agencies report a large number 
of data items for public school systems. However, the center does not 
follow up with states when there is no information provided for a 
school district or to evaluate the accuracy of the reports. So, the 
quality of the data is not established and they are not complete. The 
Department of Agriculture obtains aggregate free and reduced price 
lunch counts each October at the state level for purposes of 
reimbursing states for meals served, but it does not collect data for 
individual school districts.
    While accurate data on free lunch eligibility and participation at 
the school district level would be a useful measure of student economic 
status, it would not be directly comparable to the data used for the 
SAIPE estimates. That is because the SAIPE values are estimates of the 
number of students in families that are below the poverty level while 
free lunch eligibility is based on a threshold set at 130 percent of 
the annual poverty threshold. That is, the population of students 
eligible for free lunch includes both poor students and those that are 
near-poor. Since both the SAIPE poverty counts and the free lunch 
participation counts are based on numbers of students reaching a 
different eligibility threshold, there is no way to ascertain the 
underlying degree of poverty within the free lunch data. For example, 
if 100 students were eligible for free lunch under the NSLP, all 100 of 
the students could be part of families that are below the poverty 
threshold. Or, all 100 students could be part of families with incomes 
between the poverty threshold and 130 percent of the poverty 
threshold--it would be possible for none of the students to be living 
below the poverty level. Given accurate family income values and the 
number of family members for each student in the National School Lunch 
Program, these data could be used within the Title 1 funding formula. 
Although this information is included on the forms completed annually 
by families applying for NSLP participation, the results are 
transformed into an eligibility status at the school district level and 
the raw data are generally not provided to state educational agencies.
    While the problems above make NSLP data unusable for establishing 
Title 1 allocations nationally, individual states can propose using 
these data in formulas for reallocating Title 1 funds, with certain 
restrictions, among school districts. Any state desiring to use 
alternative data for allocating fund must apply to the USDE for 
approval. The state must justify the use of the alternative data and 
show that the data are accurate and reliable enough for allocation 
purposes.
    For purposes of the following analyses, cumulative free lunch 
participation data for 1999-2000 were compiled for the 149 public 
school districts in Mississippi. The average percentage of daily meals 
that were free lunch meals was used as a relative measure of student 
poverty within each school district. The reported October K-12 
enrollment for each school district was used along with the average 
free lunch participation rate to obtain an estimate of the number of 
students living in poverty or near-poverty.
    In addition to actual free lunch participation rates, the reported 
numbers of students who were designated eligible for free lunch in 
October 1999 (based on applications submitted during the summer or at 
the beginning of the school term) in each school district were 
collected. The eligibility numbers included students whose families 
later received a request for income verification. Students whose 
verification form indicated an income above the NSLP free lunch 
eligibility threshold and students whose verification forms were not 
returned were dropped from participation in the free lunch component. 
So, while the figures for free lunch participation and free lunch 
eligibility are similar for each district, they are not usually equal. 
One additional source of variance associated with the use of NSLP data 
is the fact that some eligible students or their parents do not apply 
for participation in the program. Reasons for this include a perceived 
stigma associated with participation in the program (especially at the 
higher grade levels) and failure of some districts' to reach and inform 
eligible families.
USDE Poverty Estimates and District Free Lunch Participation
    Using free lunch (FL) as a relative measure of student poverty in 
Mississippi, there are only small differences between free lunch 
eligibility and average free lunch participation for the 1999-2000 
school year. The two values are highly related (r=.98, N=149) and 
differ by only 7 percent at the state level.
    The reported average rate of free lunch participation statewide was 
61 percent (307,237 students within the K-12 total enrollment of 
501,417). In contrast the USDE poverty n-count estimate for the state 
was 28 percent (155,334 students within the 5-17 population estimate of 
551,315 students). Part of the difference between these values is due 
to the fact that the USDE poverty estimate is based on the annual 
poverty threshold while the FL participation rates are based on 
eligibility set at 130 percent of the annual poverty threshold. So, a 
direct comparison of these two figures is not meaningful.
    However, it is useful to determine the relationship between the 
USDE poverty estimates and the free lunch participation values. If the 
underlying income distribution of students is somewhat linear from a 
point below the poverty threshold to the poverty +30 percent NSLP 
criterion, a strong relationship would be expected between the USDE and 
FL values. The relationship between the USDE poverty estimates for the 
149 school districts in Mississippi and FL participation in those 
districts is moderately high (r=.85). Since there is no accurate 
external administrative data on which to substantiate the accuracy of 
either the USDE poverty estimates or the FL-based poverty rates, there 
is no compelling reason, at this time, to select one data source over 
the other for purposes of sub-allocating state funds to school 
districts within counties.
    Analyses were conducted to determine whether the USDE poverty 
estimates or the FL participation rates for districts were correlated 
with district size. The relationships between the USDE 5-17 population 
estimates and the poverty measures (USDE poverty rate estimate and FL 
participation rate) were r=-.16 and r=-.18, respectively (both N=149). 
This indicates that the poverty rate is not systematically higher or 
lower depending on the size of the school district as estimated by the 
USDE. The relationships between actual district K-12 enrollment figures 
and the poverty measures were slightly greater (r=-.25 for both the 
USDE poverty estimates and the FL participation rates). These data 
indicate a relatively weak relationship between the poverty rates and 
enrollment with higher poverty rates associated with smaller districts.
                               conclusion
    There is already much work underway to improve population, income, 
and poverty estimates for small areas and to develop procedures to 
allow direct measures of these values for counties and school 
districts. It is important for legislators and others who use this kind 
of information to stay current on this work and anticipate its impact 
on program funding. The agencies involved in this work include the U.S. 
Census Bureau and the National Research Council.
    Funding formulas with inherent characteristics that produce results 
that are counter to those intended should be avoided. The effect of 
certain formula characteristics such as thresholds and hold harmless 
provisions should be studied carefully before being adopted.
    While the data collection for the 2000 census is already completed, 
one can hope that the attempts to inform citizens of the importance of 
responding accurately was successful and that the data are reliable and 
free from the excessive variability that characterized the 1990 census 
data.
                                appendix
    Listings of Population N-Counts, Poverty Rates, and Differences by 
School District for each of the three sorted lists that follow 
(Appendix A, Appendix B, and Appendix C), the following data column 
headings are used:
    DIST.--The Mississippi school district code number.
    District Name.--The name of the school district.
    USDE N517.--The SAIPE small area estimate of the population of 
children ages 5-17 within the school district.
    K-12 Enrol.--The October 1999 enrollment for grades K-12 as 
reported by school districts.
    Diff as percent of Enrol.--The difference between the SAIPE 5-17 
population estimate and the reported K-12 enrollment stated as a 
percentage of the K-12 enrollment value.
    USDE percent Pov.--The SAIPE small area estimate of the percentage 
of the estimated 5-17 population that are in families living below the 
annual poverty threshold.
    Percent FL Partic.--The average percentage free lunch participation 
rate for the district (i.e., the average percentage meals served that 
were free lunch meals during 1999-2000).
    Diff as percent FL Part.--The difference between the SAIPE 
estimated poverty rate and the relative poverty rate based on free 
lunch participation stated as a percentage of the free lunch 
participation rate. Note: Differences are expected between these values 
because of differences in the eligibility thresholds.
    Diff as percent USDE Pov.--The difference between the SAIPE 
estimated poverty rate and the relative poverty rate based on free 
lunch participation stated as a percentage of the SAIPE poverty rate 
estimate. Note: Differences are expected between these values because 
of differences in the eligibility thresholds.

                                      APPENDIX A.--SORTED BY DISTRICT NAME
----------------------------------------------------------------------------------------------------------------
                                                            Diff as     USDE/                Diff as    Diff as
 DIST          District name         USDE/N517    K-12/     percent    percent    Percent    percent    percent
                                                  Enrol     of enrol     pov     FL partic   USDE pov   FL part
----------------------------------------------------------------------------------------------------------------
 4820 Aberdeen                         2,569      2,169         18         33         79       -139        -58
  200 Alcorn                           3,634      3,800         -4         16         44       -175        -64
  300 Amite County                     2,845      1,650         72         29         84       -190        -65
 4821 Amory                            1,803      1,819         -1         17         48       -182        -65
  400 Attala County                    1,602      1,367         17         30         78       -160        -62
 5920 Baldwyn                          1,009      1,035         -3         21         52       -148        -60
 2320 Bay St. Louis                    3,723      2,416         54         25         55       -120        -55
  612 Benoit                             477        300         59         55         94        -71        -41
  500 Benton County                    1,739      1,291         35         33         86       -161        -62
 2420 Biloxi                           7,983      6,096         31         29         58       -100        -50
 5921 Booneville                         830      1,622        -49         19         46       -142        -59
 4320 Brookhaven                       3,865      3,218         20         31         59        -90        -47
  700 Calhoun County                   2,789      2,509         11         24         65       -171        -63
 4520 Canton                           5,524      3,737         48         39         93       -138        -58
  800 Carroll County                   2,014      1,270         59         24         76       -217        -68
  900 Chickasaw County                   537        530          1         15         64       -327        -77
 1000 Choctaw County                   2,052      1,929          6         29         64       -121        -55
 1100 Claiborne County                 2,388      2,011         19         36         93       -158        -61
 1420 Clarksdale                       4,931      4,175         18         41         79        -93        -48
 1300 Clay County                        661        272        143         30         93       -210        -68
  614 Cleveland                        4,683      3,979         18         35         74       -111        -53
 2521 Clinton                          5,198      4,933          5         15         34       -127        -56
 1400 Coahoma County                   2,648      2,032         30         53         94        -77        -44
 8111 Coffeeville                      1,095        856         28         37         80       -116        -54
 4620 Columbia                         2,263      1,849         22         33         63        -91        -48
 4420 Columbus                         7,206      5,384         34         30         69       -130        -57
 1500 Copiah County                    3,733      3,225         16         32         70       -119        -54
  220 Corinth                          2,328      1,722         35         32         58        -81        -45
 1600 Covington County                 3,778      3,601          5         29         77       -166        -62
 1700 DeSoto County                   17,611     18,909         -7         11         35       -218        -69
 6720 Drew                             1,133        924         23         39         86       -121        -55
 2620 Durant                             670        621          8         51         83        -63        -39
 3111 East Jasper                      1,767      1,300         36         28         86       -207        -67
 6811 East Tallahatchie                1,885      1,643         15         34         77       -126        -56
 1211 Enterprise                         675        870        -22         14         37       -164        -62
 6220 Forest City                      1,692      1,814         -7         34         67        -97        -49
 1800 Forrest County                   2,405      2,546         -6         16         57       -256        -72
 1900 Franklin County                  1,718      1,733         -1         35         64        -83        -45
 2000 George County                    4,011      4,084         -2         24         46        -92        -48
 2100 Greene County                    2,479      1,955         27         28         69       -146        -59
 7620 Greenville                       9,580      7,811         23         42         85       -102        -51
 4220 Greenwood                        4,267      3,864         10         44         85        -93        -48
 2220 Grenada                          4,539      4,583         -1         25         60       -140        -58
 2421 Gulfport                         7,421      6,778          9         26         61       -135        -57
 2300 Hancock County                   3,558      4,134        -14         25         57       -128        -56
 2400 Harrison County                 12,181     12,657         -4         21         50       -138        -58
 1820 Hattiesburg                      7,846      5,108         54         33         81       -145        -59
 1520 Hazlehurst City                  2,332      1,818         28         33         86       -161        -62
 2500 Hinds County                     5,307      5,969        -11         29         55        -90        -47
 7611 Hollandale                       1,343      1,188         13         50         93        -86        -46
 4720 Holly Springs                    2,428      1,820         33         33         82       -148        -60
 2600 Holmes County                    4,616      4,088         13         56         97        -73        -42
  920 Houston Separate                 2,062      1,941          6         23         61       -165        -62
 2700 Humpreys County                  2,876      2,334         23         47         95       -102        -51
 6721 Indianola                        3,284      3,196          3         42         83        -98        -49
 2900 Itawamba County                  3,676      3,708         -1         13         43       -231        -70
 3000 Jackson County                   7,140      8,498        -16         13         35       -169        -63
 2520 Jackson Public                  37,019     31,594         17         31         74       -139        -58
 3300 Jeff.Davis Co                    2,130      2,414        -12         44         87        -98        -49
 3200 Jefferson Co                     3,139      1,731         81         38         96       -153        -60
 3400 Jones County                     8,742      7,918         10         23         50       -117        -54
 3500 Kemper County                    2,206      1,424         55         29         85       -193        -66
  420 Kosciusko                        1,981      2,158         -8         31         61        -97        -49
 3600 Lafayette Co                     2,354      2,073         14         17         50       -194        -66
 3700 Lamar County                     6,007      6,570         -9         23         31        -35        -26
 3800 Lauderdale Co                    6,911      6,715          3         19         45       -137        -58
 3420 Laurel                           3,645      3,338          9         38         79       -108        -52
 3900 Lawrence Co                      2,822      2,437         16         27         60       -122        -55
 4000 Leake County                     3,947      3,143         26         30         67       -123        -55
 4100 Lee County                       5,442      5,945         -8         20         50       -150        -60
 4200 Leflore County                   4,024      3,047         32         44         92       -109        -52
 7612 Leland                           2,109      1,471         43         43         86       -100        -50
 4300 Lincoln County                   2,696      2,786         -3         22         44       -100        -50
 2422 Long Beach                       3,841      3,616          6         15         36       -140        -58
 8020 Louisville                       4,123      3,420         21         33         72       -118        -54
 4400 Lowndes County                   5,074      5,602         -9         25         55       -120        -55
 3711 Lumberton                        1,116        991         13         37         70        -89        -47
 4500 Madison                          8,130      8,634         -6         18         40       -122        -55
 4600 Marion County                    3,571      2,976         20         35         74       -111        -53
 4700 Marshall County                  4,296      3,364         28         33         78       -136        -58
 5720 McComb                           3,726      2,992         25         41         80        -95        -49
 3820 Meridian                         7,990      7,129         12         35         76       -117        -54
 4800 Monroe County                    2,439      2,653         -8         13         38       -192        -66
 4900 Montgomery Co                    1,223        693         76         32         80       -150        -60
 3020 Moss Point                       6,420      5,233         23         24         68       -183        -65
  616 Mound Bayou                      1,032        882         17         47         93        -98        -49
  130 Natchez-Adams                    6,997      5,180         35         35         86       -146        -59
 5000 Neshoba County                   4,113      2,879         43         24         45        -88        -47
 4111 Nettleton                        1,351      1,392         -3         21         53       -152        -60
 7320 New Albany                       1,886      2,028         -7         22         48       -118        -54
 5130 Newton City                      2,168      1,212         79         22         65       -195        -66
 5100 Newton County                    1,478      1,634        -10         27         46        -70        -41
  613 North Bolivar                    1,041      1,089         -4         56         97        -73        -42
 5411 North Panola                     2,807      2,080         35         42         89       -112        -53
 5711 North Pike                       1,495      1,622         -8         19         50       -163        -62
 7011 North Tippah                     1,290      1,332         -3         29         50        -72        -42
 5200 Noxubee County                   2,901      2,354         23         44         89       -102        -51
 3021 Ocean Springs                    4,354      4,851        -10         14         24        -71        -42
  921 Okolona Separate                 1,272        940         35         24         85       -254        -72
 5300 Oktibbeha Co                     2,082      1,420         47         34         81       -138        -58
 3620 Oxford                           2,725      3,031        -10         18         64       -256        -72
 3022 Pascagoula                       8,983      7,489         20         25         53       -112        -53
 2423 Pass Christian                   1,810      1,788          1         23         51       -122        -55
 6120 Pearl                            4,737      4,144         14         13         38       -192        -66
 5500 Pearl River                      2,273      2,533        -10         26         51        -96        -49
 5600 Perry County                     1,801      1,409         28         30         66       -120        -55
 1821 Petal                            3,248      3,737        -13         16         32       -100        -50
 5020 Philadelphia                     1,472      1,275         15         33         62        -88        -47
 5520 Picayune                         4,506      3,920         15         27         61       -126        -56
 5820 Pontotoc City                    1,928      2,220        -13         19         43       -126        -56
 5800 Pontotoc County                  2,751      2,920         -6         18         35        -94        -49
 5530 Poplarville                      2,135      2,114          1         27         53        -96        -49
 5900 Prentiss County                  2,905      2,453         18         26         49        -88        -47
 1212 Quitman                          3,027      2,593         17         25         61       -144        -59
 6000 Quitman County                   2,320      1,748         33         48         89        -85        -46
 6100 Rankin County                   15,699     15,028          4         13         33       -154        -61
 5620 Richton                            849        952        -11         30         51        -70        -41
 6200 Scott County                     3,590      3,913         -8         25         64       -156        -61
 6920 Senatobia                        1,289      1,708        -25         24         46        -92        -48
  615 Shaw                               915        847          8         47         93        -98        -49
 6400 Simpson County                   5,342      4,507         19         27         67       -148        -60
 6500 Smith County                     3,026      3,146         -4         27         56       -107        -52
 6312 South Delta                      2,030      1,638         24         52         95        -83        -45
 5412 South Panola                     4,539      4,577         -1         28         66       -136        -58
 5712 South Pike                       3,095      2,576         20         41         81        -98        -49
 7012 South Tippah                     2,671      2,817         -5         19         47       -147        -60
 5320 Starkville                       4,111      4,108          0         27         64       -137        -58
 6600 Stone County                     2,528      2,650         -5         34         50        -47        -32
 6700 Sunflower County                 2,904      2,156         35         49         87        -78        -44
 6900 Tate County                      3,470      3,278          6         24         62       -158        -61
 7100 Tishomingo Co                    3,028      3,201         -5         20         46       -130        -57
 7200 Tunica County                    2,133      1,999          7         44         86        -95        -49
 4120 Tupelo                           7,625      7,476          2         15         51       -240        -71
 5131 Union City                         793        814         -3         27         50        -85        -46
 7300 Union County                     2,475      2,602         -5         14         37       -164        -62
 7500 Vicksburg-Warren                10,520      9,207         14         24         61       -154        -61
 7400 Walthall Co                      3,279      2,777         18         44         74        -68        -41
 8113 Water Valley                     1,318      1,347         -2         32         56        -75        -43
 7700 Wayne County                     4,448      4,069          9         35         68        -94        -49
 7800 Webster County                   2,064      2,017          2         25         50       -100        -50
  611 West Bolivar                     1,475      1,401          5         53         93        -75        -43
 3112 West Jasper                      2,125      1,864         14         28         69       -146        -59
 1320 West Point                       4,115      3,773          9         31         75       -142        -59
 6812 West Tallahatchie                1,611      1,447         11         49         92        -88        -47
 7613 Western Line                     2,763      2,386         16         27         75       -178        -64
 7900 Wilkinson Co                     1,962      1,726         14         47         89        -89        -47
 4920 Winona                           1,310      1,481        -12         36         59        -64        -39
 8220 Yazoo City                       2,825      3,201        -12         51         89        -75        -43
 8200 Yazoo County                     2,968      1,701         74         38         75        -97        -49
----------------------------------------------------------------------------------------------------------------


                           APPENDIX B.--SORTED BY PERCENTAGE DIFFERENCE IN ENROLLMENT
----------------------------------------------------------------------------------------------------------------
                                                            Diff as     USDE/                Diff as    Diff as
 DIST          District name         USDE/N517    K-12/     percent    percent    Percent    percent    percent
                                                  Enrol     of enrol     pov     FL partic   USDE pov   FL part
----------------------------------------------------------------------------------------------------------------
 1300 Clay County                        661        272        143         30         93       -210         -6
 3200 Jefferson Co                     3,139      1,731         81         38         96       -153         -6
 5130 Newton City                      2,168      1,212         79         22         65       -195         -6
 4900 Montgomery Co                    1,223        693         76         32         80       -150         -6
 8200 Yazoo County                     2,968      1,701         74         38         75        -97         -4
  300 Amite County                     2,845      1,650         72         29         84       -190         -6
  612 Benoit                             477        300         59         55         94        -71         -4
  800 Carroll County                   2,014      1,270         59         24         76       -217         -6
 3500 Kemper County                    2,206      1,424         55         29         85       -193         -6
 2320 Bay St. Louis                    3,723      2,416         54         25         55       -120         -5
 1820 Hattiesburg                      7,846      5,108         54         33         81       -145         -5
 4520 Canton                           5,524      3,737         48         39         93       -138         -5
 5300 Oktibbeha Co                     2,082      1,420         47         34         81       -138         -5
 7612 Leland                           2,109      1,471         43         43         86       -100         -5
 5000 Neshoba County                   4,113      2,879         43         24         45        -88         -4
 3111 East Jasper                      1,767      1,300         36         28         86       -207         -6
  500 Benton County                    1,739      1,291         35         33         86       -161         -6
  220 Corinth                          2,328      1,722         35         32         58        -81         -4
  130 Natchez-Adams                    6,997      5,180         35         35         86       -146         -5
 5411 North Panola                     2,807      2,080         35         42         89       -112         -5
  921 Okolona Separate                 1,272        940         35         24         85       -254         -7
 6700 Sunflower County                 2,904      2,156         35         49         87        -78         -4
 4420 Columbus                         7,206      5,384         34         30         69       -130         -5
 4720 Holly Springs                    2,428      1,820         33         33         82       -148         -6
 6000 Quitman County                   2,320      1,748         33         48         89        -85         -4
 4200 Leflore County                   4,024      3,047         32         44         92       -109         -5
 2420 Biloxi                           7,983      6,096         31         29         58       -100         -5
 1400 Coahoma County                   2,648      2,032         30         53         94        -77         -4
 8111 Coffeeville                      1,095        856         28         37         80       -116         -5
 1520 Hazlehurst City                  2,332      1,818         28         33         86       -161         -6
 4700 Marshall County                  4,296      3,364         28         33         78       -136         -5
 5600 Perry County                     1,801      1,409         28         30         66       -120         -5
 2100 Greene County                    2,479      1,955         27         28         69       -146         -5
 4000 Leake County                     3,947      3,143         26         30         67       -123         -5
 5720 McComb                           3,726      2,992         25         41         80        -95         -4
 6312 South Delta                      2,030      1,638         24         52         95        -83         -4
 6720 Drew                             1,133        924         23         39         86       -121         -5
 7620 Greenville                       9,580      7,811         23         42         85       -102         -5
 2700 Humpreys County                  2,876      2,334         23         47         95       -102         -5
 3020 Moss Point                       6,420      5,233         23         24         68       -183         -6
 5200 Noxubee County                   2,901      2,354         23         44         89       -102         -5
 4620 Columbia                         2,263      1,849         22         33         63        -91         -4
 8020 Louisville                       4,123      3,420         21         33         72       -118         -5
 4320 Brookhaven                       3,865      3,218         20         31         59        -90         -4
 4600 Marion County                    3,571      2,976         20         35         74       -111         -5
 3022 Pascagoula                       8,983      7,489         20         25         53       -112         -5
 5712 South Pike                       3,095      2,576         20         41         81        -98         -4
 1100 Claiborne County                 2,388      2,011         19         36         93       -158         -6
 6400 Simpson County                   5,342      4,507         19         27         67       -148         -6
 4820 Aberdeen                         2,569      2,169         18         33         79       -139         -5
 1420 Clarksdale                       4,931      4,175         18         41         79        -93         -4
  614 Cleveland                        4,683      3,979         18         35         74       -111         -5
 5900 Prentiss County                  2,905      2,453         18         26         49        -88         -4
 7400 Walthall Co                      3,279      2,777         18         44         74        -68         -4
  400 Attala County                    1,602      1,367         17         30         78       -160         -6
 2520 Jackson Public                  37,019     31,594         17         31         74       -139         -5
  616 Mound Bayou                      1,032        882         17         47         93        -98         -4
 1212 Quitman                          3,027      2,593         17         25         61       -144         -5
 1500 Copiah County                    3,733      3,225         16         32         70       -119         -5
 3900 Lawrence Co                      2,822      2,437         16         27         60       -122         -5
 7613 Western Line                     2,763      2,386         16         27         75       -178         -6
 6811 East Tallahatchie                1,885      1,643         15         34         77       -126         -5
 5020 Philadelphia                     1,472      1,275         15         33         62        -88         -4
 5520 Picayune                         4,506      3,920         15         27         61       -126         -5
 3600 Lafayette Co                     2,354      2,073         14         17         50       -194         -6
 6120 Pearl                            4,737      4,144         14         13         38       -192         -6
 7500 Vicksburg-Warren                10,520      9,207         14         24         61       -154         -6
 3112 West Jasper                      2,125      1,864         14         28         69       -146         -5
 7900 Wilkinson Co                     1,962      1,726         14         47         89        -89         -4
 7611 Hollandale                       1,343      1,188         13         50         93        -86         -4
 2600 Holmes County                    4,616      4,088         13         56         97        -73         -4
 3711 Lumberton                        1,116        991         13         37         70        -89         -4
 3820 Meridian                         7,990      7,129         12         35         76       -117         -5
  700 Calhoun County                   2,789      2,509         11         24         65       -171         -6
 6812 West Tallahatchie                1,611      1,447         11         49         92        -88         -4
 4220 Greenwood                        4,267      3,864         10         44         85        -93         -4
 3400 Jones County                     8,742      7,918         10         23         50       -117         -5
 2421 Gulfport                         7,421      6,778          9         26         61       -135         -5
 3420 Laurel                           3,645      3,338          9         38         79       -108         -5
 7700 Wayne County                     4,448      4,069          9         35         68        -94         -4
 1320 West Point                       4,115      3,773          9         31         75       -142         -5
 2620 Durant                             670        621          8         51         83        -63         -3
  615 Shaw                               915        847          8         47         93        -98        -49
 7200 Tunica County                    2,133      1,999          7         44         86        -95        -49
 1000 Choctaw County                   2,052      1,929          6         29         64       -121        -55
  920 Houston Separate                 2,062      1,941          6         23         61       -165        -62
 2422 Long Beach                       3,841      3,616          6         15         36       -140        -58
 6900 Tate County                      3,470      3,278          6         24         62       -158        -61
 2521 Clinton                          5,198      4,933          5         15         34       -127        -56
 1600 Covington County                 3,778      3,601          5         29         77       -166        -62
  611 West Bolivar                     1,475      1,401          5         53         93        -75        -43
 6100 Rankin County                   15,699     15,028          4         13         33       -154        -61
 6721 Indianola                        3,284      3,196          3         42         83        -98        -49
 3800 Lauderdale Co                    6,911      6,715          3         19         45       -137        -58
 4120 Tupelo                           7,625      7,476          2         15         51       -240        -71
 7800 Webster County                   2,064      2,017          2         25         50       -100        -50
  900 Chickasaw County                   537        530          1         15         64       -327        -77
 2423 Pass Christian                   1,810      1,788          1         23         51       -122        -55
 5530 Poplarville                      2,135      2,114          1         27         53        -96        -49
 5320 Starkville                       4,111      4,108          0         27         64       -137        -58
 4821 Amory                            1,803      1,819         -1         17         48       -182        -65
 1900 Franklin County                  1,718      1,733         -1         35         64        -83        -45
 2220 Grenada                          4,539      4,583         -1         25         60       -140        -58
 2900 Itawamba County                  3,676      3,708         -1         13         43       -231        -70
 5412 South Panola                     4,539      4,577         -1         28         66       -136        -58
 2000 George County                    4,011      4,084         -2         24         46        -92        -48
 8113 Water Valley                     1,318      1,347         -2         32         56        -75        -43
 5920 Baldwyn                          1,009      1,035         -3         21         52       -148        -60
 4300 Lincoln County                   2,696      2,786         -3         22         44       -100        -50
 4111 Nettleton                        1,351      1,392         -3         21         53       -152        -60
 7011 North Tippah                     1,290      1,332         -3         29         50        -72        -42
 5131 Union City                         793        814         -3         27         50        -85        -46
  200 Alcorn                           3,634      3,800         -4         16         44       -175        -64
 2400 Harrison County                 12,181     12,657         -4         21         50       -138        -58
  613 North Bolivar                    1,041      1,089         -4         56         97        -73        -42
 6500 Smith County                     3,026      3,146         -4         27         56       -107        -52
 7012 South Tippah                     2,671      2,817         -5         19         47       -147        -60
 6600 Stone County                     2,528      2,650         -5         34         50        -47        -32
 7100 Tishomingo Co                    3,028      3,201         -5         20         46       -130        -57
 7300 Union County                     2,475      2,602         -5         14         37       -164        -62
 1800 Forrest County                   2,405      2,546         -6         16         57       -256        -72
 4500 Madison                          8,130      8,634         -6         18         40       -122        -55
 5800 Pontotoc County                  2,751      2,920         -6         18         35        -94        -49
 1700 DeSoto County                   17,611     18,909         -7         11         35       -218        -69
 6220 Forest City                      1,692      1,814         -7         34         67        -97        -49
 7320 New Albany                       1,886      2,028         -7         22         48       -118        -54
  420 Kosciusko                        1,981      2,158         -8         31         61        -97        -49
 4100 Lee County                       5,442      5,945         -8         20         50       -150        -60
 4800 Monroe County                    2,439      2,653         -8         13         38       -192        -66
 5711 North Pike                       1,495      1,622         -8         19         50       -163        -62
 6200 Scott County                     3,590      3,913         -8         25         64       -156        -61
 3700 Lamar County                     6,007      6,570         -9         23         31        -35        -26
 4400 Lowndes County                   5,074      5,602         -9         25         55       -120        -55
 5100 Newton County                    1,478      1,634        -10         27         46        -70        -41
 3021 Ocean Springs                    4,354      4,851        -10         14         24        -71        -42
 3620 Oxford                           2,725      3,031        -10         18         64       -256        -72
 5500 Pearl River                      2,273      2,533        -10         26         51        -96        -49
 2500 Hinds County                     5,307      5,969        -11         29         55        -90        -47
 5620 Richton                            849        952        -11         30         51        -70        -41
 3300 Jeff.Davis Co                    2,130      2,414        -12         44         87        -98        -49
 4920 Winona                           1,310      1,481        -12         36         59        -64        -39
 8220 Yazoo City                       2,825      3,201        -12         51         89        -75        -43
 1821 Petal                            3,248      3,737        -13         16         32       -100        -50
 5820 Pontotoc City                    1,928      2,220        -13         19         43       -126        -56
 2300 Hancock County                   3,558      4,134        -14         25         57       -128        -56
 3000 Jackson County                   7,140      8,498        -16         13         35       -169        -63
 1211 Enterprise                         675        870        -22         14         37       -164        -62
 6920 Senatobia                        1,289      1,708        -25         24         46        -92        -48
 5921 Booneville                         830      1,622        -49         19         46       -142        -59
----------------------------------------------------------------------------------------------------------------


                          APPENDIX C.--SORTED BY PERCENTAGE DIFFERENCE IN PROVERTY RATE
----------------------------------------------------------------------------------------------------------------
                                                            Diff as     USDE/                Diff as    Diff as
 DIST          District name         USDE/N517    K-12/     percent    percent    Percent    percent    percent
                                                  Enrol     of enrol     pov     FL partic   USDE pov   FL part
----------------------------------------------------------------------------------------------------------------
 3700 Lamar County                     6,007      6,570         -9         23         31        -35        -26
 6600 Stone County                     2,528      2,650         -5         34         50        -47        -32
 2620 Durant                             670        621          8         51         83        -63        -39
 4920 Winona                           1,310      1,481        -12         36         59        -64        -39
  612 Benoit                             477        300         59         55         94        -71        -41
 7400 Walthall Co                      3,279      2,777         18         44         74        -68        -41
 5100 Newton County                    1,478      1,634        -10         27         46        -70        -41
 5620 Richton                            849        952        -11         30         51        -70        -41
 2600 Holmes County                    4,616      4,088         13         56         97        -73        -42
 7011 North Tippah                     1,290      1,332         -3         29         50        -72        -42
  613 North Bolivar                    1,041      1,089         -4         56         97        -73        -42
 3021 Ocean Springs                    4,354      4,851        -10         14         24        -71        -42
  611 West Bolivar                     1,475      1,401          5         53         93        -75        -43
 8113 Water Valley                     1,318      1,347         -2         32         56        -75        -43
 8220 Yazoo City                       2,825      3,201        -12         51         89        -75        -43
 6700 Sunflower County                 2,904      2,156         35         49         87        -78        -44
 1400 Coahoma County                   2,648      2,032         30         53         94        -77        -44
  220 Corinth                          2,328      1,722         35         32         58        -81        -45
 6312 South Delta                      2,030      1,638         24         52         95        -83        -45
 1900 Franklin County                  1,718      1,733         -1         35         64        -83        -45
 6000 Quitman County                   2,320      1,748         33         48         89        -85        -46
 7611 Hollandale                       1,343      1,188         13         50         93        -86        -46
 5131 Union City                         793        814         -3         27         50        -85        -46
 5000 Neshoba County                   4,113      2,879         43         24         45        -88        -47
 4320 Brookhaven                       3,865      3,218         20         31         59        -90        -47
 5900 Prentiss County                  2,905      2,453         18         26         49        -88        -47
 5020 Philadelphia                     1,472      1,275         15         33         62        -88        -47
 7900 Wilkinson Co                     1,962      1,726         14         47         89        -89        -47
 3711 Lumberton                        1,116        991         13         37         70        -89        -47
 6812 West Tallahatchie                1,611      1,447         11         49         92        -88        -47
 2500 Hinds County                     5,307      5,969        -11         29         55        -90        -47
 4620 Columbia                         2,263      1,849         22         33         63        -91        -48
 1420 Clarksdale                       4,931      4,175         18         41         79        -93        -48
 4220 Greenwood                        4,267      3,864         10         44         85        -93        -48
 2000 George County                    4,011      4,084         -2         24         46        -92        -48
 6920 Senatobia                        1,289      1,708        -25         24         46        -92        -48
 8200 Yazoo County                     2,968      1,701         74         38         75        -97        -49
 5720 McComb                           3,726      2,992         25         41         80        -95        -49
 5712 South Pike                       3,095      2,576         20         41         81        -98        -49
  616 Mound Bayou                      1,032        882         17         47         93        -98        -49
 7700 Wayne County                     4,448      4,069          9         35         68        -94        -49
  615 Shaw                               915        847          8         47         93        -98        -49
 7200 Tunica County                    2,133      1,999          7         44         86        -95        -49
 6721 Indianola                        3,284      3,196          3         42         83        -98        -49
 5530 Poplarville                      2,135      2,114          1         27         53        -96        -49
 5800 Pontotoc County                  2,751      2,920         -6         18         35        -94        -49
 6220 Forest City                      1,692      1,814         -7         34         67        -97        -49
  420 Kosciusko                        1,981      2,158         -8         31         61        -97        -49
 5500 Pearl River                      2,273      2,533        -10         26         51        -96        -49
 3300 Jeff.Davis Co                    2,130      2,414        -12         44         87        -98        -49
 7612 Leland                           2,109      1,471         43         43         86       -100        -50
 2420 Biloxi                           7,983      6,096         31         29         58       -100        -50
 7800 Webster County                   2,064      2,017          2         25         50       -100        -50
 4300 Lincoln County                   2,696      2,786         -3         22         44       -100        -50
 1821 Petal                            3,248      3,737        -13         16         32       -100        -50
 7620 Greenville                       9,580      7,811         23         42         85       -102        -51
 2700 Humpreys County                  2,876      2,334         23         47         95       -102        -51
 5200 Noxubee County                   2,901      2,354         23         44         89       -102        -51
 4200 Leflore County                   4,024      3,047         32         44         92       -109        -52
 3420 Laurel                           3,645      3,338          9         38         79       -108        -52
 6500 Smith County                     3,026      3,146         -4         27         56       -107        -52
 5411 North Panola                     2,807      2,080         35         42         89       -112        -53
 4600 Marion County                    3,571      2,976         20         35         74       -111        -53
 3022 Pascagoula                       8,983      7,489         20         25         53       -112        -53
  614 Cleveland                        4,683      3,979         18         35         74       -111        -53
 8111 Coffeeville                      1,095        856         28         37         80       -116        -54
 8020 Louisville                       4,123      3,420         21         33         72       -118        -54
 1500 Copiah County                    3,733      3,225         16         32         70       -119        -54
 3820 Meridian                         7,990      7,129         12         35         76       -117        -54
 3400 Jones County                     8,742      7,918         10         23         50       -117        -54
 7320 New Albany                       1,886      2,028         -7         22         48       -118        -54
 2320 Bay St. Louis                    3,723      2,416         54         25         55       -120        -55
 5600 Perry County                     1,801      1,409         28         30         66       -120        -55
 4000 Leake County                     3,947      3,143         26         30         67       -123        -55
 6720 Drew                             1,133        924         23         39         86       -121        -55
 3900 Lawrence Co                      2,822      2,437         16         27         60       -122        -55
 1000 Choctaw County                   2,052      1,929          6         29         64       -121        -55
 2423 Pass Christian                   1,810      1,788          1         23         51       -122        -55
 4500 Madison                          8,130      8,634         -6         18         40       -122        -55
 4400 Lowndes County                   5,074      5,602         -9         25         55       -120        -55
 6811 East Tallahatchie                1,885      1,643         15         34         77       -126        -56
 5520 Picayune                         4,506      3,920         15         27         61       -126        -56
 2521 Clinton                          5,198      4,933          5         15         34       -127        -56
 5820 Pontotoc City                    1,928      2,220        -13         19         43       -126        -56
 2300 Hancock County                   3,558      4,134        -14         25         57       -128        -56
 4420 Columbus                         7,206      5,384         34         30         69       -130        -57
 2421 Gulfport                         7,421      6,778          9         26         61       -135        -57
 7100 Tishomingo Co                    3,028      3,201         -5         20         46       -130        -57
 4520 Canton                           5,524      3,737         48         39         93       -138        -58
 5300 Oktibbeha Co                     2,082      1,420         47         34         81       -138        -58
 4700 Marshall County                  4,296      3,364         28         33         78       -136        -58
 4820 Aberdeen                         2,569      2,169         18         33         79       -139        -58
 2520 Jackson Public                  37,019     31,594         17         31         74       -139        -58
 2422 Long Beach                       3,841      3,616          6         15         36       -140        -58
 3800 Lauderdale Co                    6,911      6,715          3         19         45       -137        -58
 5320 Starkville                       4,111      4,108  .........         27         64       -137        -58
 2220 Grenada                          4,539      4,583         -1         25         60       -140        -58
 5412 South Panola                     4,539      4,577         -1         28         66       -136        -58
 2400 Harrison County                 12,181     12,657         -4         21         50       -138        -58
 1820 Hattiesburg                      7,846      5,108         54         33         81       -145        -59
  130 Natchez-Adams                    6,997      5,180         35         35         86       -146        -59
 2100 Greene County                    2,479      1,955         27         28         69       -146        -59
 1212 Quitman                          3,027      2,593         17         25         61       -144        -59
 3112 West Jasper                      2,125      1,864         14         28         69       -146        -59
 1320 West Point                       4,115      3,773          9         31         75       -142        -59
 5921 Booneville                         830      1,622        -49         19         46       -142        -59
 3200 Jefferson Co                     3,139      1,731         81         38         96       -153        -60
 4900 Montgomery Co                    1,223        693         76         32         80       -150        -60
 4720 Holly Springs                    2,428      1,820         33         33         82       -148        -60
 6400 Simpson County                   5,342      4,507         19         27         67       -148        -60
 5920 Baldwyn                          1,009      1,035         -3         21         52       -148        -60
 4111 Nettleton                        1,351      1,392         -3         21         53       -152        -60
 7012 South Tippah                     2,671      2,817         -5         19         47       -147        -60
 4100 Lee County                       5,442      5,945         -8         20         50       -150        -60
 1100 Claiborne County                 2,388      2,011         19         36         93       -158        -61
 7500 Vicksburg-Warren                10,520      9,207         14         24         61       -154        -61
 6900 Tate County                      3,470      3,278          6         24         62       -158        -61
 6100 Rankin County                   15,699     15,028          4         13         33       -154        -61
 6200 Scott County                     3,590      3,913         -8         25         64       -156        -61
  500 Benton County                    1,739      1,291         35         33         86       -161        -62
 1520 Hazlehurst City                  2,332      1,818         28         33         86       -161        -62
  400 Attala County                    1,602      1,367         17         30         78       -160        -62
  920 Houston Separate                 2,062      1,941          6         23         61       -165        -62
 1600 Covington County                 3,778      3,601          5         29         77       -166        -62
 7300 Union County                     2,475      2,602         -5         14         37       -164        -62
 5711 North Pike                       1,495      1,622         -8         19         50       -163        -62
 1211 Enterprise                         675        870        -22         14         37       -164        -62
  700 Calhoun County                   2,789      2,509         11         24         65       -171        -63
 3000 Jackson County                   7,140      8,498        -16         13         35       -169        -63
 7613 Western Line                     2,763      2,386         16         27         75       -178        -64
  200 Alcorn                           3,634      3,800         -4         16         44       -175        -64
  300 Amite County                     2,845      1,650         72         29         84       -190        -65
 3020 Moss Point                       6,420      5,233         23         24         68       -183        -65
 4821 Amory                            1,803      1,819         -1         17         48       -182        -65
 5130 Newton City                      2,168      1,212         79         22         65       -195        -66
 3500 Kemper County                    2,206      1,424         55         29         85       -193        -66
 3600 Lafayette Co                     2,354      2,073         14         17         50       -194        -66
 6120 Pearl                            4,737      4,144         14         13         38       -192        -66
 4800 Monroe County                    2,439      2,653         -8         13         38       -192        -66
 3111 East Jasper                      1,767      1,300         36         28         86       -207        -67
 1300 Clay County                        661        272        143         30         93       -210        -68
  800 Carroll County                   2,014      1,270         59         24         76       -217        -68
 1700 DeSoto County                   17,611     18,909         -7         11         35       -218        -69
 2900 Itawamba County                  3,676      3,708         -1         13         43       -231        -70
 4120 Tupelo                           7,625      7,476          2         15         51       -240        -71
  921 Okolona Separate                 1,272        940         35         24         85       -254        -72
 1800 Forrest County                   2,405      2,546         -6         16         57       -256        -72
 3620 Oxford                           2,725      3,031        -10         18         64       -256        -72
  900 Chickasaw County                   537        530          1         15         64       -327        -77
----------------------------------------------------------------------------------------------------------------

    [Clerk's Note.--Additional material submitted is being retained in 
the subcommittee files.]

                         CONCLUSION OF HEARING

    Senator Cochran. Let me say, again, thank you to all of you 
and to my staff, Ann Copland and others, Win Ellington, who's 
here, Rachel Spence, and Mark Laisch is the staff member of the 
subcommittee who works directly for Senator Specter, who's 
chairman of the subcommittee, who's here and has been helpful 
to us, as well. Thank you all for attending.
    Thank you all very much for being here, that concludes our 
hearing. The subcommittee will stand in recess subject to the 
call of the Chair.
    [Whereupon, at 11:03 a.m., Friday, April 20, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
